<html>
<title> - EXAMINING THE NEED FOR COMPREHENSIVE NATIONAL PAID FAMILY AND MEDICAL LEAVE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                  EXAMINING THE NEED FOR COMPREHENSIVE
                 NATIONAL PAID FAMILY AND MEDICAL LEAVE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2019

                               __________

                           Serial No. 116-75

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                             
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
38-734 PDF            WASHINGTON : 2020 
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Clay Higgins, Louisiana
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                  Russ Anello, Chief Oversight Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
               
               
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2019................................     1

                               Witnesses

Panel 1
The Honorable Rosa DeLauro, Congresswoman, 3rd Congressional 
  District of Connecticut
    Oral Statement...............................................     7
Panel 2
Jacqui Silvani, Newfields, New Hampshire
    Oral Statement...............................................    10
Vicki Shabo, Senior Fellow, Paid Leave Policy and Strategy, 
  Better Life Lab, New America
    Oral Statement...............................................    11
The Honorable Robert Asaro-Angelo, Commissioner, New Jersey 
  Department of Labor and Workforce Development
    Oral Statement...............................................    14
Aaron Seyedian, Founder, Well-Paid Maids
    Oral Statement...............................................    16
Rachel Greszler [Minority Witness], Research Fellow, Economics, 
  Budget, and Entitlements, The Heritage Foundation
    Oral Statement...............................................    18
Jennifer Tucker, Senior Policy Advisor, The Black Women's 
  Roundtable, The National Coalition on Black Civic Participation
    Oral Statement...............................................    19
*  Opening statements, and the prepared statements for the above 
  witnesses are available at the U.S. House of Representatives 
  Repository: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: docs.house.gov.

  * Study about California's paid family leave; submitted by Rep. 
  Miller.

  * Sprouts plan to invest tax reform savings in employee 
  programs; submitted by Rep. Grothman.

  * Dollar Tree expands maternity leave, article; submitted by 
  Rep. Grothman.

  * Lowes to give employees bonuses due to benefits from tax 
  reform, article; submitted by Rep. Grothman.

  * Starbucks announces new investments in paid leave, article; 
  submitted by Rep. Hice.

  * Unum boosts parental leave, article; submitted by Rep. Hice.

  *Southwire to pay workers, article; submitted by Rep. Hice.

  *The TjX Companies; submitted by Rep. Hice.

  *Jezebel article; submitted by Rep. Ocasio-Cortez.

  *Staffer written testimony; submitted by Rep. Ocasio-Cortez.

  *Rep. Steny Hoyer's written statement; submitted by Chairwoman 
  Maloney.

  *Letters of support from 15 organizations; submitted by 
  Chairwoman Maloney.


                  EXAMINING THE NEED FOR COMPREHENSIVE
                 NATIONAL PAID FAMILY AND MEDICAL LEAVE

                              ----------                              


                       Tuesday, December 10, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Connolly, Krishnamoorthi, Raskin, Rouda, Wasserman Schultz, 
Sarbanes, Welch, Speier, Kelly, DeSaulnier, Lawrence, Plaskett, 
Gomez, Ocasio-Cortez, Pressley, Tlaib, Jordan, Massie, Meadows, 
Hice, Grothman, Comer, Gibbs, Norman, Roy, Miller, Armstrong, 
Steube, and Keller.
    Chairwoman Maloney. The committee will come to order.
    Good morning to everyone. Without objection, the chair is 
authorized to declare a recess of the committee at any time.
    With that, I will now recognize myself for my opening 
statement.
    I am honored to be convening today's hearing, my very first 
as chairwoman of the Committee on Oversight and Reform, as we 
continue to mourn the loss of our dear friend and colleague, 
Chairman Elijah Cummings. As I sit here today in his chair, I 
am mindful of his lifelong mission to seek not only common 
ground, but higher ground.
    With that in mind, I am very pleased to hold today's 
hearing on an issue we have been fighting for many years, the 
need for comprehensive paid family and medical leave. It's 
important for people to understand the current situation in our 
country. Right now, we are one of only two nations in the world 
that does not provide our workers with any form of paid family 
or medical leave, the United States and Papua New Guinea.
    I remember when I was pregnant with my first child, and I 
asked my offices about leave policy. Do you know what they 
said? Leave? What leave? Women just leave. We expect you to 
leave. I said I didn't intend to leave, I intended to come back 
to work. They said it's the only time it's ever happened. That 
was an unacceptable answer then, and it is an unacceptable 
answer now for families across the country.
    There are some basic and fundamental questions we need to 
face as a society. For example, if a young woman, a hardworking 
and promising employee, wants to have a child and spend a few 
weeks caring for her newborn, should she be forced to go 
without any paid maternity leave at all? Or should we as a 
Nation finally recognize that having a child is a wonderful and 
predictable part of our employees' lives that we should 
support?
    If a father's two-year-old daughter is diagnosed with 
cancer, should he be forced to take leave without pay and face 
financial hardship in order to take his daughter to her 
chemotherapy treatments? Or should we as a Nation do better by 
them?
    If a man who has dedicated his entire professional career 
to serving the American people has to help care for his wife 
after a stroke, should he be forced to leave the workplace 
altogether? Or should we as a Nation value him and his 
contributions?
    These are the questions that we as policymakers must 
answer. We are the ones who make these decisions. I believe 
with all my heart that we need a policy that supports 
hardworking young women who are having their children, that 
supports the father in crisis who is caring for his two-year-
old daughter with cancer, and that supports the dedicated 
husband who is helping his wife recover from her stroke.
    Providing this benefit is a significant and important 
investment in our future. The future of children, parents, 
families, and our future as a Nation. Paid leave yields better 
outcomes for productivity, health of parents and children, and 
long-term financial stability. It also contributes to closing 
the gender wage gap.
    There are some who disagree. They oppose paid maternity and 
paternity leave, and they oppose any type of paid family and 
medical leave. But we are making progress in this fight that 
has been over 35 years in the making, to give parents and 
caregivers who work for the Federal Government, time to care 
for their newborns, sick children, and other ailing members.
    Champions like former Congresswoman Patricia Schroeder, who 
was chair of the then-House Civil Service Subcommittee, started 
this important work force effort to respect parents and 
caregivers and help them balance the economic and emotional 
needs of having a family so they wouldn't need to choose 
between their family and their work.
    I have sponsored a bill for many years called the Federal 
Employee Paid Leave Act. In fact, previous versions of the bill 
passed the House twice, but we have never gotten it through the 
Senate and signed into law.
    My current bill would provide Federal employees, women and 
men, with 12 weeks of paid leave for the birth, adoption, or 
fostering of a child, for a serious medical condition, or to 
care for an ill spouse or parent. The Federal Government is our 
Nation's largest employer, and it should be a model employer 
for the Nation.
    Earlier this year, I was very pleased that the House passed 
these provisions as part of the National Defense Authorization 
Act. When it went to the Senate, we were not sure if it would 
survive. We had been fighting for so long. We did not know if 
it would finally happen. But over the past few days, an 
agreement was struck to provide for 12 weeks of paid leave for 
employees at all Federal agencies when they have a new baby or 
adopt a child.
    If this agreement is signed into law, it will be a 
tremendous victory for the more than 2.1 million employees 
across the country. Parents finally will be able to have a 
child without worrying about their paychecks suddenly coming to 
a halt.
    Now, this agreement is not perfect. The Senate refused to 
approve paid leave for medical reasons. For example, that 
father who needs to take his two-year-old child to chemotherapy 
treatments would not be covered, and neither would the husband 
who needs to care for his wife recovering from her stroke. In 
addition, this provision covers only Federal employees, so it 
does not cover anyone working in the private sector.
    We will continue fighting for these Americans in the months 
and years to come. But despite these drawbacks, this is an 
amazing accomplishment. Democrats made this issue a priority of 
our caucus. I want to thank Speaker Pelosi, the Democratic 
Women's Caucus chaired by Lawrence, Speier, and Frankel, who 
have made it a priority, along with the congressional 
Progressive Caucus, chaired by Jayapal and Pocan, for their 
support and leadership.
    I would also like to acknowledge Representative Gerry 
Connolly for his work on the issue. He is a tireless advocate. 
He held our committee's first hearing in this Congress on this 
issue in his subcommittee. He is also a tremendous negotiator. 
He is one of our committee's conferees on the defense bill, 
along with Stephen Lynch, who is also phenomenal.
    Together they skillfully represented the interests of our 
committee, our workers, and the American people in the 
negotiations with the Senate that resulted in this victory. 
They also worked closely with Chairman Adam Smith on the 
Committee on Armed Services, whose leadership and vision led to 
this achievement, as well as our partner in these efforts, 
Democratic Leader Steny Hoyer.
    I would now like to recognize my good friend and colleague, 
the gentleman from Virginia, Mr. Connolly, to give his opening 
statement.
    Mr. Connolly. I thank the chair. And congratulations on 
your first hearing, I believe, as chairwoman.
    Chairwoman Maloney. Yes, it is.
    Mr. Connolly. But especially congratulations on this signal 
victory. Without your persistence and your tenacity, this would 
not have happened. And as you said, the job isn't complete, but 
this is a huge step forward. Congratulations, Chairwoman 
Maloney.
    In September, our subcommittee, Government Operations, held 
the first hearing, as the chairwoman just indicated, to even 
discuss paid family leave for Federal employees, the first 
hearing like it in 10 years. Again, it was due to the 
persistence of Chairwoman Maloney that we were able to have 
this hearing.
    I was honored to work with her to ensure that a provision 
providing 12 weeks of paid parental leave to our talented 
Federal employee work force remained in the National Defense 
Authorization Act, and it seems we were successful. But the 
victory lap is somewhat circumscribed, because there's still 
more work to do, as the chairwoman just indicated.
    While we've secured paid parental leave for Federal 
employees, we must continue to fight for paid family caregiving 
leave and leave to care for one's own medical needs.
    Now, is the time to catch America up to the rest of the 
world when it comes to paid family and medical leave. Leading 
businesses have long recognized that good paid leave policies 
for employees strengthen families and enhance recruitment and 
retention of a talented work force. It's time that all of 
America's families, and our national economy, reaped those 
benefits.
    I will continue to join with Chairwoman Maloney and others 
to fight for our Nation's civil servants and their right to 
paid family and medical leave. We want all Americans to enjoy 
those privileges and those rights. As we stated, when fighting 
to ensure paid parental leave for Federal employees in the 
NDAA, too many employees, both public and private, have no 
access to leave when they need it most, and it's time to take 
steps to ensure they have it.
    Family leave is not a magnanimous gift provided by unsavvy 
employers. Data shows that paid family leave improves 
recruitment, morale, productivity, and retention. A 2016 survey 
by Deloitte found that 77 percent of Americans said paid family 
leave would sway their choice of an employer. That's 
particularly important in an environment with 3.5 percent 
unemployment.
    Half of those surveyed would prefer a family leave 
opportunity to a pay raise. An Ernst & Young study found that 
80 percent of companies with paid family leave policies found a 
positive impact on employee engagement.
    Companies that institute paid leave policies found less 
attrition of their female employees. A Rutgers University 
survey found that women with access to paid family leave are 93 
percent more likely to be working a year after having a child 
than those without such access.
    In short, paid leave is an effective incentive for all 
employees and can be a pivotal one for women, particularly in 
the workplace.
    With all of these benefits, the United States remains one 
of the only nations in the world, industrialized world, that 
does not guarantee some form of paid leave. In fact, in 2018, 
less than 17 percent of the workers in our country had access 
to paid leave benefits through their employer, and less than 40 
percent has access to personal medical leave through employer-
provided short-term disability insurance.
    The lack of paid leave hurts American families and the 
Nation's economy. If our country took steps we're advocating 
for today, creating policies that encourage woman to 
participate in the work force at the same rates as men, 
economists predict we would improve the Nation's finances by 
half a trillion dollars in economic activity per year. By 
providing paid family leave to Federal civil servants alone, 
the Institute for Women's Policy Research estimated agencies 
could prevent 2,650 departures per year among women workers, 
saving $50 million in annual turnover costs.
    In the United States, 62 percent of two-parent families 
have both parents employed as they struggle to make ends meet. 
Three-quarters of women with children work outside the home. 
Beyond childcare, our Nation is aging, and the size of families 
is decreasing, meaning more Americans are and will be 
responsible for caring for older parents.
    Currently, one in four Virginia workers, for example, in my 
state, is 55 or older, one in four. And in the next 15 years, 
the share of Virginia's population over the age of 65 is 
projected to grow by 30 percent. That's not untypical of most 
of the country.
    So, we're going to need to care for our older family 
members. And as a Nation, we need to take steps to ensure we're 
prepared for those population shifts.
    In Virginia, access to paid leave is even more concerning. 
For example, in 72 percent of our households with children, all 
parents have paying jobs. In 79 percent of homes with Black 
moms in Virginia, those moms are the breadwinners. In homes 
with White and Latino mothers, moms are the breadwinners in 
nearly half of those homes. Yet 55 percent of our work force 
does not have access to paid leave, and even fewer have access 
to paid leave at all. It's time to change those policies.
    Having a baby, nursing your ailing dad or mom, sitting next 
to your sick teenager at the hospital, treating your own 
symptoms after radiation treatments for cancer, these are the 
most vulnerable moments for a family, rife with emotion and 
deep pain and difficulty. These are the moments that 
demonstrate that we as Americans care about each other. We need 
to enact policies that put families first, and it's an easy 
step when it also makes economic sense.
    I thank the chairwoman for her leadership and her 
graciousness, and I wish every success in our future endeavor. 
I yield back.
    Chairman Maloney. Thank you. I would now like to recognize 
the ranking member, Mr. Jordan, for his opening statement.
    Mr. Jordan. Thank you, Madam Chair.
    Let me also congratulate you. This is a big day for you. We 
appreciate that and wish you the best.
    While we all miss our friend, Chairman Cummings, we look 
forward to working with you and your team.
    We hope we get--that you will work with Republicans in 
rooting out waste, fraud, and abuse in the Federal Government 
and in working to pursue reforms that make our government more 
efficient, effective, and accountable.
    In that vein, before I get to our opening statement, there 
was a report released just yesterday by the Inspector General, 
as you know, Madam Chair, this committee has jurisdiction over 
the inspector generals and the work that they do in the various 
Federal agencies across our government, and we were hoping that 
you might let us know when we would have Mr. Horowitz in front 
of this committee to answer the questions about his important 
and, in many ways, scathing report on the FISA court and what 
took place just a few years ago in front of that court.
    Do you have an idea when we might have that hearing?
    Chairwoman Maloney. The ranking member's request for a 
hearing with Mr. Horowitz is noted, and we will address that at 
the appropriate time.
    Mr. Jordan. I appreciate that, Madam Chair.
    The purpose of today's hearing is to discuss various 
proposals to pay Federal employees for up to 12 weeks of family 
and medical leave and to mandate various leave requirements on 
employers in the private sector.
    At the outset, I would like to note that the best way to 
help both employers and employees throughout the country is to 
pursue policies that promote economic growth and job creation. 
Since President Trump's inauguration, his administration and 
Republicans in Congress have pursued policies to do exactly 
that.
    Under the President's leadership, we have been successful. 
The November jobs report showed that our economy added 266,000 
additional workers, 54,000 in the manufacturing sector, and 
unemployment fell to an unbelievably low rate of 3.5 percent. 
And I think that's because of the policies such as the Tax Cuts 
and Jobs Act, which the President signed into law almost two 
years ago now.
    Because of our growing economy, companies are competing for 
workers and voluntarily expanding benefits for their employees.
    In our home state of Ohio, for example, Conger Construction 
Group from Lebanon was able to double the number of its 
employees, offer bigger bonuses to its employees, give more 
paid time off to employees, and offer better health care 
benefits because of the Tax Cuts and Jobs Act, not because of 
any mandate from the Federal Government.
    I have concerns about several of the proposals that we will 
discuss today. We must carefully consider the potential 
tradeoffs from legislating a Federal mandate for paid family 
leave, like the potential for lower pay or reduction in other 
employer-employee-based benefits.
    In the Federal Government, of course, the free market and 
the free market principles aren't applicable. It is, therefore, 
up to Congress to decide whether to expand Federal employees' 
paid leave policy. Federal employees, on average, receive 
annual salaries around $90,000. Federal employees' total 
compensation, including benefits, can be valued as much as 
$125,000. Research shows that Federal employees are paid more 
than comparable workers in the private sector.
    But before settling on a proposal that would tax--that 
would take tax dollars from union workers in Ohio to pay for 
leave for already well-paid attorneys at the EPA or the 
Department of Labor, the committee and the Congress should do 
some serious fact-finding. It is incumbent upon us to study the 
relevant information.
    Is paid family leave necessary? Are a large number of 
Federal workers depleting their paid vacation leave and sick 
days for parental or medical leave? Do Federal agencies have 
policies in place that substitute for paid family leave?
    Paid family leave is certainly a well-intentioned policy, 
but we have an obligation as policymakers to thoughtfully 
consider the proposals, the need for the proposals, and their 
potential consequences.
    I'm grateful for the witnesses for testifying before us 
today, particularly pleased to see our colleague, Ms. DeLauro, 
with us today, and we look forward to their testimony and the 
chance to ask questions.
    With that, Madam Chair, again, congratulations. I yield 
back.
    Chairwoman Maloney. Thank you.
    I would now like to welcome our first witness. First, we're 
honored to have with us the House sponsor, the lead sponsor of 
the FAMILY Act, a bill that would create universal 
comprehensive paid family and medical leave for workers across 
the country.
    Congresswoman Rosa DeLauro has been a champion for workers 
and families for three decades. As chairwoman of the 
Appropriations Subcommittee on Labor, Health and Human 
Services, and Education, she leads the fight to expand 
opportunities to middle class families and ensure our economy 
is working for everyone. We are grateful for her tireless 
leadership and dedication to these issues.
    Congresswoman DeLauro, you may now begin.

    STATEMENT OF THE HON. ROSA DELAURO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you very, very much for your kind words. 
And while this morning we honor the memory of our colleague, 
Elijah Cummings, we offer our sincere congratulations to you, 
Madam Chair, on ascending to this position. I am delighted to 
be here.
    And I want to recognize and thank our ranking member, Mr. 
Jordan, for welcoming me here today, and all of the members of 
the committee.
    You know, as Members of Congress, I believe it is our duty 
to level the playing field for middle class families and for 
working people, especially now. Why now? People's pay is a 
serious economic challenge that people have in their lives, 
that their pay does not keep up with the rising costs, 
skyrocketing costs that they face every day.
    So, it is sadly no surprise that very few can afford to 
lose several weeks of wages, whether for an ill loved one, or 
for the birth of a child. It would push them over the edge. In 
fact, 62 percent of working people cannot access unpaid leave 
under the Family and Medical Leave Act, according to 
researchers from Brandeis University, either because they are 
ineligible, or they cannot afford to.
    But those moments come regardless. In 1986, I was diagnosed 
with ovarian cancer. I went to my employer then, told him I was 
going to be hospitalized, and that I didn't really know whether 
or not I would be returning. My employer was Senator 
Christopher Dodd. Senator Dodd introduced what became the 
Family and Medical Leave that same year. But what he said to me 
on that day when I went into his office was, Rosa, go get 
yourself well. Your job is here. Your salary is here. Just take 
care of yourself.
    With the support of my family and friends, and by the grace 
of God and biomedical research, I recovered and have been 
cancer free for 30 years.
    Two years ago, my mother, at age 103--happy to tell you, 
she served on the City Council in New Haven for 35 years--she 
was dying. I got to spend every day and every night with her 
for six weeks. No one told me, as a Member of Congress, that I 
would not receive a salary. No one told me that my job would 
not be waiting for me.
    That was such a blessing in both cases, a blessing that 
cannot just be for Senate staffers or for Members of Congress.
    The United States needs a national paid leave policy to 
provide paid time off for working people who are welcoming a 
new child, caring for a seriously ill or injured family member, 
or recovering personally from a serious illness, for everyone.
    So, after three years of careful deliberation and coalition 
building, I introduced the FAMILY Act with my partner in the 
Senate, Senator Kirsten Gillibrand, and we did that in 2013. It 
is the gold standard. We have reintroduced it in every Congress 
since, as we did earlier this year, with 700 groups in 
virtually every state endorsing it.
    The FAMILY Act allows employees to receive up to 60 days, 
or 12 weeks of partial income, 66 percent of their income, for 
a health condition, injury, or sickness to a child, parent, 
spouse, or domestic partner, the birth or adoption of a child, 
the injury of a family member in the military, or exigencies 
arising from a servicemember's deployment. It creates an 
independent, a self-sustaining national insurance fund by 
having employees and employers pitch in together with payroll 
contributions of two cents for every $10 in wages. It is 
equivalent to less than $2 per week for a typical worker.
    It would be managed under a new office of Paid Family and 
Medical Leave within the Social Security Administration, but it 
is separate and independent from the Social Security Trust 
Fund, so that it does not impact the solvency of Social 
Security. It has a record 201 cosponsors in the House and 34 in 
the Senate, and it is bipartisan, as were similar proposals in 
the states.
    So far, nine states, including the District of Columbia, 
have passed paid leave programs. They go even further in terms 
of leave duration, family members covered, wage replacement 
offered, or employment protections. We can learn from these 
innovations, and we can learn from the businesses who support 
paid leave. From the Main Street Alliance to the American 
Sustainable Business Council, close to 100 businesses or 
business leaders nationwide support the FAMILY Act.
    It is no surprise that a 2017 study by the Boston 
Consulting Group found that 250 companies offering paid family 
and medical leave reported better ability to attract and retain 
talent, higher productivity, more diverse company leadership 
teams, and increased profitability.
    Considering the benefits of paid leave for families and for 
businesses, I am so glad to see that my colleagues on the other 
side of the aisle support this in some form. But proposals need 
to be not--not deal with harm, because that would be 
unacceptable.
    Many of the programs I've currently written force tradeoffs 
between the worker's current self and their future self. 
They're being asked to dip into their Social Security funds, or 
their child tax credit. And most only provide income for new 
parents. We applaud--we should provide support for new parents. 
The birth of a child is glorious. But income support for new 
parents is not enough. 75 percent of workers who take FMLA, 
family and medical leave, currently do so to address the 
serious health condition of their own, or of a loved one.
    So, let us provide the paid leave that families and workers 
need and deserve, not only for Senate staffers, for House 
staffers, and not only for Members of Congress, but for 
everyone in this country, to provide them with economic 
security. We need to alleviate the economic insecurity of 
middle-class families, of working people. We must not only 
celebrate them; we must elevate them. We can do that with the 
FAMILY Act.
    Thank you so much for allowing me to come before the 
committee this morning.
    Chairwoman Maloney. Thank you so much, Congresswoman, for 
your testimony and for all of your efforts on this issue. And 
for everything that you do for working families, thank you so 
much.
    While the second panel is coming forward and the clerks are 
switching out the nameplates, I will introduce our second 
panel.
    We are privileged to have witnesses on our second panel 
that bring a rich diversity of perspectives on the issue of 
paid leave.
    Jacqui Silvani is a teacher and Navy veteran whose son, 
Joe, was treated for a rare form of cancer in 2015 at the age 
of three. She is from New Hampshire, and she will testify about 
her inability to access paid caregiving leave when her son was 
sick.
    Second, we have Vicki Shabo. She is a senior fellow for 
paid leave policy and strategy at the think-tank, New America. 
She is a leading expert on national and state paid family leave 
policy, and has researched extensively in this field. From 2009 
until 2019, Ms. Shabo led workplace policy initiatives at the 
National Partnership for Women and Children.
    The Honorable Robert Asaro-Angelo is the Commissioner of 
Labor and Workforce Development for New Jersey. He is 
responsible for administering New Jersey's paid family leave 
program, and will testify about how that program benefits 
workers and businesses in the state.
    Aaron Seyedian is the founder of Well-Paid Maids, a home 
cleaning service in Washington, DC, and Boston. It pays its 
workers a living wage and offers them a full benefits package, 
including paid leave. He will share how being able to offer 
paid leave helps his employees and gives his small business a 
competitive advantage.
    Rachel Greszler is a research fellow for economics, budget, 
and entitlements at The Heritage Foundation.
    And Jennifer Tucker is a policy--senior policy advisor for 
Black Women's Roundtable, which is part of the National 
Coalition on Black Civic Participation. She will testify about 
how the lack of paid family and medical leave impacts women and 
families of color.
    If you would all please rise and raise your right hand; I 
will begin swearing you in.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you and please be seated.
    The microphones are sensitive, so please speak directly 
into them.
    Without objection, your written statement will be made part 
of the record.
    With that, Ms. Silvani, you are now recognized for your 
opening statement.

     STATEMENT OF JACQUI SILVANI, NEWFIELDS, NEW HAMPSHIRE

    Ms. Silvani. Good morning, Chairwoman Maloney, Ranking 
Member Jordan, and members of the committee. My name is Jacqui 
Silvani. I live in New Fields, New Hampshire, and I am a proud 
member of MomsRising. I am also very proud to be a Navy 
veteran, a mother of three, a wife, and a teacher of fourth 
grade students at Epping Elementary School.
    Hi, guys.
    I'm here today because I know firsthand why our country so 
urgently needs a comprehensive paid leave policy that allows 
all workers to care for their families without risking their 
jobs or financial security.
    In June 2015, I was driving home from work when I received 
the kind of phone call no parent ever wants to get. My two-
year-old son, Joe, was playing at daycare when suddenly, half 
of his face was red and sweaty while the other half was 
completely dry. His providers were perplexed. My husband and I 
rushed Joe to the emergency room. The next morning, after a 3-
1/2-hour MRI, doctors told us that our tiny toddler had a 
clementine-sized tumor in his chest. Joe was diagnosed with 
stage 4 neuroblastoma, a cancer of the nerve endings. Joe also 
had bone lesions on his hips, spine, shoulder blade, and femur.
    In a heartbeat, our lives changed completely. I had only 
one thought: I needed to save my child's life. Joe's treatments 
started immediately, and it quickly became clear that it would 
be long and difficult. Joe needed six rounds of inpatient 
chemotherapy, 20 rounds of radiation, tandem stem cell 
transplants that decimated his immune system and required 
complete isolation, and six rounds of painful immunotherapy. He 
has lasting kidney damage due to his treatment and developed a 
rare and severe complication called transplant associated 
thrombotic microangiopathy that itself has a 20 percent 
survival rate. Over the course of his intense treatment, he 
spent 210 days in the hospital. I was there with him nearly 
every day, because most of all, he needed me.
    Having paid leave for at least part of that time would have 
made such a difference. It would have helped to alleviate the 
enormous stress my husband and I faced. We could have staggered 
our leave and shared the responsibility of managing Joe's care, 
while still collecting the paychecks we so desperately needed. 
We wouldn't have had to worry about our jobs at the same time 
we worried about our child's life.
    But we did. When Joe was diagnosed, there was no question 
that I needed to take time away from work. But as a teacher, I 
had no paid leave. My son's diagnosis meant we immediately lost 
a third of our income. My husband works at an auto dealership 
and had no paid leave either. His income is based on 
commissions. So, while I managed Joe's care, my husband faced 
the enormous stress of working full-time, doing all he could to 
support Joe and me, and becoming the primary caregiver of our 
two children.
    At the same time we lost my income, we faced major new 
expenses. My salary was gone, but we had to pay the COBRA rate 
for our health insurance during my year leave of absence at the 
rate of $1,700 a month. There were healthcare costs that our 
insurance didn't cover. Constantly taking Joe for treatment in 
Boston meant paying a lot for gas and parking. Hospitals don't 
provide caregiver meals. We needed before and after-school care 
for Joe's siblings, including care over summers and school 
vacations that was not anticipated. Yet, we still needed to pay 
our bills.
    Losing my income in the midst of this nightmare meant my 
son's medical crisis was also a financial crisis for our 
family. I will forever be grateful to the community that 
rallied around us. Friends held fundraisers to help keep us 
afloat and help pay our mortgage. But because we had no paid 
leave, we were under extreme financial stress at the same time 
we faced the extreme emotional stress that came with trying to 
see our toddler through this life-threatening illness.
    Now, 4-1/2 years after his diagnosis, I'm thrilled to say 
that Joe is a healthy second grader and just about the happiest 
kid you'll meet. We often joke he's bound to be a politician, 
because he's so talented at engaging people. Perhaps one day he 
will sit where you do today. If so, I know he will prioritize 
policies like paid family medical leave, because he knows 
firsthand what they mean for families.
    While Joe has recovered, our family is still feeling the 
financial effects of my unpaid leave. My retirement accounts 
are gone. We are unable to contribute to my husband's accounts. 
We are still digging out as we support our three children. Yet 
we are the lucky ones.
    The emotional effects continue as well. When your kids are 
in danger, you don't think about your own mental health. We 
live in fear that Joe will relapse because the rate of 
recurrence for kids with the kind of cancer that Joe has is 
around 50 percent. I honestly don't know how we would survive 
it again.
    But I do know that if we had paid leave, it would have been 
much more manageable. Often when we think about paid leave, we 
think about new babies. I know some lawmakers have even offered 
proposals that only address leave for new parents. As a mom, I 
know how important parental leave is. But we needed family 
leave to care for Joe, and policies that don't address the full 
range of caregiving needs would not have helped my family. In 
fact, they would have left us behind.
    No one plans for their child to get cancer, for a parent to 
have a stroke, or to need surgery yourself, but those things 
happen to all families, and that's why our country needs a 
comprehensive paid leave policy so urgently.
    Working people like my husband and me should be able to be 
there for our families in times of joy and times of hardship. I 
hope you will support the FAMILY Act.
    Thank you.
    Chairwoman Maloney. Thank you.
    Ms. Shabo.

STATEMENT OF VICKI SHABO, SENIOR FELLOW, PAID LEAVE POLICY AND 
             STRATEGY, BETTER LIFE LAB, NEW AMERICA

    Ms. Shabo. Good morning, Chair Maloney, Ranking Member 
Jordan, and members of the committee.
    Thank you. Your story is incredible. And as a parent, I 
can't imagine what you have gone through.
    I also want to offer my congratulations to you, Chairwoman, 
for your longstanding leadership on Federal employee's paid 
leave, and the significant march forward that the Federal 
employees parental leave provision in NDAA is. It will make the 
Federal Government an employer of choice.
    But access to paid leave shouldn't depend on one's 
employer, their job, or their state of residence, whether 
they're a traditional employee, or a contract worker. But today 
it does.
    Just 19 percent of workers have access to employer-provided 
paid family leave to care for a new child or an ill loved one. 
Within individual workplaces, access may be provided to the 
most highly paid and highly skilled workers, but not to others. 
This comes at an enormous cost. An estimated $20.6 billion to 
families in lost wages, $500 billion to the economy and lost 
productivity, more than $300,000 in lost income and retirement 
savings to adults who take time away from work to care for an 
aging parent, unknowable healthcare costs, safety net costs, 
and opportunity costs.
    You must take action now. But what action looks like really 
matters. Paid leave must be part of a suite of investments in 
families, wages, work, and care. A comprehensive national paid 
family and medical leave program must be equitable, inclusive, 
and sustainable. It must provide every working person in this 
country with the security of being able to care for ourselves 
and our loved ones, and it should be designed to promote race, 
gender, economic equity, and strengthen America's 
competitiveness in the global economy.
    Right now, the FAMILY Act is the only proposal pending in 
Congress that meets this test. It's exciting to see support, 
both from the 200-plus cosponsors, which are now a bipartisan 
group, and from advocates and businesses. In fact, this week, a 
new collaborative called Paid Leave For All and a new small 
business coalition for paid family and medical leave are both 
launching, which is a testament to momentum and demand.
    I want to make three observations about potential 
bipartisan progress and the enactment of comprehensive paid 
leave. And I wanted dispel myths and provide context for 
action.
    First, let's not forget that the FMLA, the Nation's unpaid 
leave law, was enacted after a nine-year battle in Congress. 
Nine years. It took so long because opponents at the time 
claimed that the FMLA would do substantial harm to businesses 
and the economy. Fortunately, they were wrong, and many of the 
opponents at the time admit that now.
    Similar in states, businesses that feared new paid family 
leave laws have also found their concerns to be unfounded. They 
generally now support their state's laws, and business support 
for a national law is growing.
    Second, the eight states, plus New Jersey, with paid--plus 
D.C. I'm sorry. New Jersey is sitting right here--with paid 
leave programs show that progress is possible. Most include 
features that substantially surpass the FAMILY Act, in terms of 
the uses of leave, the wage replacement offered, the family 
members covered, the employment protections provided. And most 
substantially and significant for this committee and for 
Congress, laws with these enhanced features passed with 
substantial bipartisan support.
    To me, the state's bipartisan progress cautions against 
allowing Congress and national political observers to define 
down what a passable policy is. You must not write off certain 
policy design elements. We should look to the states' 
experiences to understand that a program like the FAMILY Act 
should be within bipartisan reach.
    Third, it's remarkable that 80 percent of voters support a 
plan like the FAMILY Act. Substantial majorities of voters 
across all political backgrounds also prefer the FAMILY Act to 
approaches that would cut people out or force tradeoffs. Voters 
who support the FAMILY Act are also willing to contribute to a 
national paid leave fund, and to contribute more than it would 
require. This, too, is true across party lines.
    Experience in states reinforces this polling. To my 
knowledge, there has never been a backlash against payroll 
contributions from individual taxpayers or businesses in states 
with paid leave programs.
    So, what's required in a national policy? To achieve 
favorable outcomes for women's labor force participation and 
earnings, men's engagement in caregiving, child, maternal, and 
ill loved one's health, business benefits, and taxpayer 
savings, a national program must meet certain criteria. It must 
include all FMLA-covered needs to create a policy that's 
flexible for all working people, regardless of their care need; 
make leave available gender equally, both on paper and in terms 
of the policy parameters, that make it possible for men to take 
leave; provide adequate and timely wage replacement so lower-
wage workers can use the policy without hardship; ensure 
meaningful duration of leave to account for the full complement 
of health and care needs; permit caregiving for a range of 
family members, to recognize that family care comes in many 
forms; be affordably and sustainably funded to provide 
certainty for workers and employers; include employment 
protections so that leave is safe to use; and finally, and most 
important, as we're finding from new research, build in funding 
for worker and employer outreach and education to ensure 
effective implementation and use.
    Congress's search for common-ground solutions is exciting 
and long overdue. However, bipartisan efforts should not 
translate into watered-down legislation. Proposals that only 
cover new parents and fail to provide new revenue can only be 
described as half-measures that would do more harm than good. 
These approaches would exacerbate existing inequalities and 
would fail to serve the interests of women, people of color, 
people with disabilities, and low-wage workers. They would also 
be ineffective at producing desired individual and systemic 
outcomes.
    It's well past time for the United States to enact a 
national comprehensive paid family and medical leave program. 
The costs of the status quo are great, but the benefits of the 
future that we can create together are much more substantial. 
States show us that a plan like the FAMILY Act can work for the 
country. It's time for paid leave for all.
    Chairwoman Maloney. Thank you.
    Mr. Asaro-Angelo.

STATEMENT OF HON. ROBERT ASARO-ANGELO, COMMISSIONER, NEW JERSEY 
         DEPARTMENT OF LABOR AND WORKFORCE DEVELOPMENT

    Mr. Asaro-Angelo. Chair Maloney, Ranking Member Jordan, 
members of the committee, thank you for welcoming me here 
today. Greetings from Governor Murphy and the great state of 
New Jersey.
    I appreciate your devoting your time to this important 
issue. For seven years, I had the privilege of serving as the 
regional representative at the U.S. Department of Labor, 
working on this important issue from Maine to Florida, where I 
often used New Jersey as an example in our push to lead on 
leave.
    Now as Labor Commissioner, I am proud to be working on best 
practices in my own state, support our workers and businesses, 
people who want to provide for their families and communities, 
and people who want to contribute to our economy. That is what 
every person in this room should be thinking about, myself 
included, taking care of the people behind the jobs.
    New Jersey is experiencing a strong economy. More people 
are at work in the Garden State than ever before, and a near 
record low 3.2 percent unemployment rate. But a strong economy 
does not mean we can rest on our laurels or assume economic 
benefits reach everyone equally.
    We have been proactive in reinforcing our commitment to 
paid family and medical leave in our state. This year, we 
celebrated the 10-year anniversary of Family Leave Insurance, 
or FLI, as we'll call it, and the 70th anniversary of temporary 
disability insurance, or TDI, as it is known in our state.
    These programs support our workers by acknowledging 
caregiving as an integral part of American culture. Like most 
states, we have a significant sandwich generation, a work force 
that is taking care of both children and aging parents and 
relatives.
    In New Jersey, there is no doubt these programs work as a 
publicly funded insurance program. For seven decades, our TDI 
program has been jointly funded by employers and employees, 
providing a framework for our solely worker-funded FLI program 
that has recently been expanded at zero cost to employers. By 
offering this wage replacement in a universal, comprehensive, 
and inclusive way, we are ensuring all of our workers who care 
for loved ones have the income they need.
    Those least likely to have benefits offered privately by 
their employers, tend to be younger, female, and have less 
access to education and savings than those who receive at least 
some pay while on leave. That's why programs like ours are so 
critical.
    As Labor Commissioner, I know when families thrive, the 
economy thrives, which is why this year we passed a law 
expanding family leave. As Governor Murphy reminded us when we 
signed the bill, no one should ever be forced to choose between 
earning--caring for a family member, and earning a paycheck. 
Research shows employers overwhelmingly care about the well-
being of their staff.
    We now have 11,000 more businesses operating in our state 
than we did when FLI went into effect, including year-over-year 
growth of our small businesses as well. In a competitive 
economy, these programs relieve employers from providing an 
additional job benefit without increasing costs, leveling the 
playing field for all businesses competing for talent, large 
and small. Paid family and medical leave programs save 
employers money by reducing turnover and training costs when 
they lose staff to a temporary situation.
    According to the American Sustainable Business Council, 
employee productivity actually increased between 3.5 and 6.5 
percent once paid leave policies were implemented. 
Additionally, an Employer Association of New Jersey survey 
found the average time it took employers to assist with their 
worker's claim was only about an hour, start to finish. And 
that was before we made improvements to reduce employer-side 
paperwork. This is good policy and good government.
    The Murphy administration continues to learn from best 
practices, working with our legislators to make informed 
changes. For example, we recognize the structure of families 
today is more diverse than in the past, and, therefore, our 
programs must also evolve for the caregiving obligations 
families face today.
    We have expanded coverage to include children of any age, 
parents-in-law, siblings, grandparents, grandchildren, domestic 
partners, any individuals related by blood or with whom you 
have the equivalent of a family relationship.
    We have also expanded coverage to victims of domestic or 
sexual violence. The law now permits these victims to claim 
benefits so they can access the care they need and focus on 
their recovery and safety. These improvements are a good start. 
But as of July 2020, even more are coming. We have doubled the 
maximum benefit period so workers can claim up to 12 weeks for 
caregiving or bonding. We've also increased the weekly benefit 
rate from 66 to 85 percent of a worker's average weekly wage, 
which, according to this year's numbers, will be up to $881 per 
week.
    Finally, our FLI program will allow workers with more than 
one job the option to take leave from one employer while 
continuing to work for another. Since many New Jerseyans work 
more than one job, this aspect of the new law offers 
flexibility that did not exist before. Why do we make these 
changes? Because people in low-wage jobs can't afford to live 
on a replacement of only two-thirds of their weekly wages, 
which means low-income workers can't bond with a new baby, or 
care for an aging parent, further restricting them from moving 
up the career and wage ladder.
    We know access to paid family and medical leave is only 
meaningful if every worker from the home health aide to the 
health care executive has access. The true challenge is making 
our most vulnerable populations aware of rights, protections, 
and programs available to them and ensuring equity in access.
    That is why we formed the Office of Strategic Outreach, to 
let our communities know about paid family and medical leave, 
as well as earned sick leave and other recent improvements to 
New Jersey law.
    If you'd like information beyond today's testimony, our 
website is myleavebenefits.nj.gov, where we made it easier for 
everywhere to understand the rights and benefits available to 
them. So, I encourage you to visit and see how paid leave works 
in New Jersey. We think you'll see the evidence that we are 
making the economy stronger because it is becoming fairer.
    Thank you for your time and attention to this critical 
issue. I look forward to your questions.
    Chairwoman Maloney. Thank you. Thank you very much.
    Mr. Seyedian.

     STATEMENT OF AARON SEYEDIAN, FOUNDER, WELL-PAID MAIDS

    Mr. Seyedian. Thank you, Chairwoman Maloney, Ranking Member 
Jordan, and members of the committee for having me here today.
    My name is Aaron Seyedian. I am a member of the Main Street 
Alliance, and I am the founder of Well-Paid Maids, a living-
wage home cleaning company that operates in the D.C. and Boston 
areas. All of our employees earn $17 an hour and receive a full 
benefits package on day one with us. This package includes 22 
paid days off per year; health, dental, and vision insurance; 
100 percent employer-paid commuting costs; and 100 percent 
employer-paid short-term disability insurance.
    Unlike many cleaning companies, we only hire W-2 employees, 
not independent contractors, which means all of our employees, 
of course, receive unemployment insurance, workers' 
compensation insurance, and are eligible for overtime.
    By offering consumers an ethical alternative in an industry 
where anti-worker practices are rampant, we hope to help our 
workers by providing good-paying jobs with decent benefits. At 
the same time, we aim to help all workers by bolstering the 
case for policies like a minimum wage that's a living wage, 
paid sick days, and the subject of today's hearing, paid family 
and medical leave.
    I'm really eager to see paid family and medical leave 
enacted at the Federal level. As a small business owner, I can 
tell you that the sky is not going to fall on employers if 
something like is this enacted, not just for Federal workers, 
of course, but for the private sector.
    Based on my own business experience, I think that paid 
leave is not only affordable for small businesses, but that 
it's extremely beneficial for them as well.
    So, first on the subject of cost, I'm personally skeptical 
of any employer who would claim that paying into a paid leave 
program is going to threaten the viability of their business or 
force them to lay off employees. My company is currently 
participating in the ramp-up periods for Massachusetts' and 
D.C.'s paid leave programs, and they're just not that 
expensive. So, D.C. is the more costly program, and it's a .62 
percent payroll tax on wages paid. So, for my business, that's 
around $20 per month per employee. From my perspective, any 
employer that can't brook an additional $20 or $30 per month, 
you know, per FTE doesn't have a viable business--or business 
model.
    Furthermore, as somebody who provides short-term disability 
insurance to its employers, I can tell that you the state and 
local programs, which we're currently participating in, are 
going to offer comparable coverage to what a small business can 
obtain in the private market but at nearly one-third of the 
cost. It's obvious why.
    You know, by running this type of insurance program as a 
public good, instead of private profit-making entity, costs can 
go down for the folks who subscribe to it. In addition to that 
reduced cost, the state programs that we're going to be 
participating in also include family leave. Of course, short-
term disability insurance, that's really just for personal 
medical issues.
    So, in addition to being affordable, though, I believe that 
paid family and medical leave at the Federal level is going to 
be extremely beneficial to businesses, right? This isn't just a 
cost to bear. You know, in my own business, I've reaped a lot 
of gains from the benefits that I mentioned earlier, short-term 
disability being one of them.
    In the cleaning industry, you know, the typical model is to 
basically, you know, misclassify your workers, pay them as 
little as possible, offer no benefits, work them to death. My 
company takes the opposite approach. And I think there are 
great reasons for doing that.
    So, you know, in every market we operate in, we offer the 
best possible compensation package, and because of that, I know 
that if you take care of your employees, they're going to take 
care of you. So, you know, from my perspective, the reason that 
my employees are happy, hardworking, and dependable is because 
we have a benefits package, including paid leave, that respects 
the reality of everyday life. We all know people get sick, we 
all know people have babies, they need vacation, et cetera. I 
think that when you show employees that you have their back, 
they have yours in turn. You know, multiple witnesses have 
mentioned kind of the litany of studies that indicate all of 
the benefits that businesses experience by offering paid leave 
and other--other high-road benefits.
    In closing, I'm proud to be a business owner coming here 
today to speak in support of paid family and medical leave, and 
I'm happy to articulate it in business terms. Based on the 
structure of the existing state and local programs that we're 
participating in, you know, from my perspective, it's not going 
to cost businesses all that much, and it's going to generate 
positive outcomes for everybody.
    Ultimately, though, I think the crucial argument for a 
national paid family and medical leave program is that it's the 
right thing to do. Too often, we reduce everything to the logic 
of the market. You know, sometimes that's fine. Ultimately, 
though, I think that paid family and medical leave is more than 
an employment issue. I think that how we decide to support each 
other when the worst happens is a test of national character, 
and I believe that we as Americans need to come to terms with 
the fact that currently our policies pretend that it's normal 
for people to fall into avoidable financial ruin when the worst 
happens or for people to return to work two weeks or less 
after--after having a baby.
    Whether or not we use policy to ensure that people can take 
time off to be with their newborn children or to care for a 
sick spouse is, I believe, a moral choice, and I hope that 
Congress will soon make the right choice by extending paid 
family and medical leave, not just to Federal employees, but to 
all employees.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Chairwoman Maloney. Thank you very much.
    Our next witness is Ms. Greszler.

   STATEMENT OF RACHEL GRESZLER, RESEARCH FELLOW, ECONOMICS, 
       BUDGET, AND ENTITLEMENTS, THE HERITAGE FOUNDATION

    Ms. Greszler. Good morning, and thank you for inviting me 
here today. As a mother of six young children, and also with my 
own mother and my grandmother diagnosed with cancer in recent 
years, I understand the need to take leave. Families are the 
foundation of society, and I think that it's important that 
they be able to care for one another.
    But we also have to recognize that paid family leave has 
costs and consequences, and a government program can't erase 
those costs, it can only redistribute them. Voluntary employer-
provided policies work better because they can balance worker's 
and employer's needs at minimal costs and consequences, 
providing them more flexible and often more generous policies 
than a one-size-fits-all government program could. Yet a 
Federal Government program would crowd out these policies, just 
as they're starting to expand even further.
    Most notably, many low-wage workers have gained access to 
employer-provided policies over recent years. I think everyone 
here today agrees that it's these low-wage workers that we want 
to help the most.
    So, I wanted to share a story about a low-income refugee 
family that my own family came to know and love recently. This 
family welcomed their fourth child about a year ago, a sweet 
little baby boy. As they left the hospital, what should have 
been a sweet homecoming to them, they returned and their 
belongs were all outside on the sidewalk. They had been 
evicted. This father needed a job. They needed a home. They 
needed food for their children. And this mother needed a place 
to recover.
    Paid family leave was the last thing on their minds. If a 
government program had been there, it would have been of no use 
to them. Neither parent had been in a job long enough to 
qualify for leave, and a partial benefit would not have been 
enough to make ends meet. That's why I'm so concerned by the 
FAMILY Act and other government proposals.
    The experience of government-run paid family leave programs 
across the world is that they redistribute money from lower-
income earners to middle-and upper-income earners.
    In California, five times as many workers in the highest 
income bracket file paid leaves claims as those in the lowest 
bracket. Canada's program is said to exacerbate class 
inequality and, quote, ``aid in the social reproduction of 
higher-income families,'' end quote. In the
    U.K., quote, ``too little support is directed to those 
families that need it most and too much to those who do not,'' 
end quote. In New Jersey, quote, ``the state's paid family 
leave policy puts many workers below the poverty level and 
pushes people who are already struggling deeper into poverty,'' 
end quote.
    Attempts to reverse these regressive traits have failed. 
San Francisco tried by enacting a 100 percent benefit 
replacement, and yet, low-income mothers were still half as 
likely as higher-income ones to receive government benefits. 
Moreover, a recent economic analysis of California's program 
found that it reduced women's employment and earnings, as well 
as their fertility rates.
    This is the opposite of what we should all want to achieve. 
Instead, policymakers should seek pro-growth policies and other 
measures that can do more for low-income families and for all 
families.
    This strong economy and our 50-year record low employment 
rate have produced large wage gains, and those gains have been 
the strongest for lower-income workers. Those who make less 
than $25,000 a year gained about $1,500 in additional wages 
last year. And low-income Black women gained about $2,400. 
That's enough to finance between three and five weeks of paid 
family leave. And if those workers don't need the leave, it's 
their own money to spend or save as they please.
    Moreover, the Tax Cuts and Jobs Act has added $1,400 to the 
typical family household, and more companies are adding new and 
expanded paid leave benefits because of those tax cuts.
    Policymakers can build on these gains by helping generate 
leave options that meet worker's and employer's unique needs at 
a cost that they can afford. The Working Families Flexibility 
Act would give lower-income hourly workers the choice to 
accumulate paid leave in exchange for overtime work. Universal 
savings accounts, or letting workers draw on other tax 
preferred savings, would be particularly helpful for 
independent, part-time, and temporary workers. And increased 
private disability insurance is another way to meet worker's 
own leave needs.
    Considering the upward trend in efficient and flexible 
employer-provided paid leave programs, as well as the highly 
regressive nature of the existing government programs, 
policymakers should avoid enacting a new Federal program, and 
instead, focus on giving workers more income and flexibility to 
choose what works best for them.
    Thank you.
    Chairwoman Maloney. Thank you. Our last witness is Ms. 
Tucker.

   STATEMENT OF JENNIFER TUCKER, SENIOR POLICY ADVISOR, THE 
        NATIONAL COALITION ON BLACK CIVIC PARTICIPATION

    Ms. Tucker. Good morning.
    Chairwoman Maloney, acting--Ranking Member Jordan and 
members of the committee, many of you support paid family leave 
because you care about valuing families, and likewise, many of 
you are committed to promoting racial and gender equality. I'm 
here today to connect the dots, because paid leave is an 
essential way to build such equality.
    Lack of leave drives down Black women's income and economic 
stability, their ability to keep their job and to advance, get 
out of poverty and stay out of poverty and build wealth.
    Our Nation was built upon forced, unpaid labor of enslaved 
Black men and women. Low paid domestic work was the only job 
open to many Black women after the Civil War and well into the 
1960's. When the labor--Fair Labor Standards legislation was 
passed guaranteeing minimum pay, hours, and protections, an 
agreement with southern segregationists excluded domestic and 
agricultural workers. Not surprisingly, Black women and other 
people of color today are less likely to have access to paid 
family and medical leave.
    I sit before you this morning not only as a public policy 
professional, but also as a caregiver, twice having experienced 
life in the sandwich generation. My younger daughter was barely 
walking when my mother was diagnosed with Parkinson's disease 
in her late 60's. I was her primary caregiver. Then, too, my 
sister, who lived with a chronic illness her entire adult life 
after a lupus diagnosis as a teen. She just celebrated her 48th 
birthday the day before she suffered a serious bleed on her 
spinal column.
    Ms. Tucker. Both of my caregiving experiences were for 
chronic conditions that lasted for many years. Each had a 
common crisis period associated with them that required all of 
my attention and that of several family members. We survived 
because we had financial resources, paid sick and vacation 
days, and a supportive family that many people don't have.
    It taught me that a catastrophic accident or illness can 
happen to anyone, and all workers deserve time to care for 
themselves, their families, without economic devastation, 
physical exhaustion, or so much stress.
    I know many Black women who have little or no paid leave 
time. Black women earn only 61 cents for every dollar earned by 
White, non-Hispanic men. Only 54 percent of Black workers have 
access even to unpaid leave under FMLA, and many women who do 
can't afford to use it because 84 percent are primary or co-
breadwinners for their families.
    Black women face a devastating maternal mortality rate, 
four times higher than that of White women. Pregnancy-related 
complications are closely tied to infant death.
    We need comprehensive paid family and medical leave to 
combat these and other disparities, but how that leave program 
is structured matters. We must ask: Will it reduce or increase 
racial and gender inequities?
    To be inclusive, a paid family leave needs and must have 
coverage for all workers and all need cares, offer a meaningful 
duration of time, reflect the diversity of families, guarantee 
job protection, provide adequate and progressive wage 
replacement, and be sustainably funded and cost-effective.
    I thank you for your time and your commitment to ending 
racial and gender inequality.
    Chairwoman Maloney. Thank you so much.
    The chair now recognizes the distinguished Congresswoman 
Norton.
    Ms. Norton. Thank you very much, Madam Chair. Again, I 
congratulate you on assuming the chair and on the achievement 
of your Federal paid family leave act. No wonder this is your 
first hearing.
    I'd like to direct my questions first to Mr. Seyedian, who, 
of course, does business in the District of Columbia, to 
congratulate him on giving a living wage to all his employees 
and what looks like a pretty full package.
    Now, you've been in business only three years, right?
    Mr. Seyedian. Just over two years.
    Ms. Norton. But you do business in--well, Massachusetts 
has--in Massachusetts and D.C.
    Mr. Seyedian. Yes. Yes.
    Ms. Norton. Now, D.C. doesn't quite have it yet, right?
    Mr. Seyedian. No. So, both are actually in the ramp-up 
period.
    Ms. Norton. So, both are in the ramp-up period. So, you are 
competing with businesses that do not offer family leave of any 
kind, I take it. I mean, there are many such businesses in the 
District of Columbia.
    Mr. Seyedian. Correct. Yes.
    Ms. Norton. So, my question really goes your bottom line, 
and that is: How are you able to grow--are you growing?--and 
compete with others who don't offer anything like the package 
you offer? In fact, I need to find out more about you so we can 
consider bringing you into our home here in the district.
    Mr. Seyedian. I hope so.
    Yes, that's a great question. So, the business has been 
around for just over two years. You know, as we look at closing 
off, you know, this calendar year, basically we will have 
doubled in size from our first full year to our second full 
year. We're going to do around $600,000 in revenue this year, 
which we think is pretty good for a business of our size and 
our age.
    You know, to your point, we have grown quite a bit. So, 
we're at 14 employees. We're still hiring in both the D.C. area 
and the Boston area. In fact, I have somebody flying up to 
Boston tonight to hire a few more cleaners in that market.
    And, you know, in terms of how we compete, it's really 
through customers who are attracted to what we're doing. So, 
you know, we're not just A-1 Cleaning Services, you know, or 
Four-Star Cleaning Services. The people who use our company are 
really excited about our wages and our benefits, and, you know, 
that's why they're willing to choose us versus a competitor.
    I think that's a great message to, you know, anyone who's 
thinking about the different possibilities in the economy for a 
high-road model, which is customers really crave it. So, I 
think that's----
    Ms. Norton. So, that if there's a state law----
    Mr. Seyedian. Sorry?
    Ms. Norton. If there is a state law, such as the upcoming--
--
    Mr. Seyedian. Yes.
    Ms. Norton [continuing]. Law or the law in New Jersey, does 
that make it more affordable to remain in business and to 
compete with others in business? In other words, you're doing 
this on your own.
    Mr. Seyedian. Yes.
    Ms. Norton. You're competing with others who don't have to 
do it. You say you're making a profit.
    Mr. Seyedian. Right. Absolutely.
    Ms. Norton. Now, what difference would it make to have a 
state law, let's say the new D.C. law?
    Mr. Seyedian. Well, it's actually going to make us more 
profitable because of the amount of money that we pay right now 
for short-term disability insurance, which, you know, we use as 
basically kind of a stopgap version of paid family medical 
leave, because folks can use it to tend to their own medical 
absences.
    The short-term disability insurance that we buy is more 
costly than the public program that we're going to participate 
in in D.C. So, by being able to basically cancel our short-term 
disability policies and just participate in the public plans, 
we're going to save money, and it's going to make us more 
profitable.
    Ms. Norton. I wanted to ask Ms. Shabo, unpaid family leave, 
how--I mean, would you give us some indication of whether or 
not unpaid family leave, that law that we passed some time ago, 
has benefited anyone? Do people take advantage of it when they 
don't get any pay? Who is it that takes advantage of it?
    Ms. Shabo. Sure.
    Ms. Norton. What good is it?
    Ms. Shabo. Yes. The Family and Medical Leave Act, which is 
now 26-1/2 years old, certainly has benefited some people. But 
the reality is that, for people who cannot afford to take 
leave--that is the number-one reason why people forego a needed 
leave, is that they can't afford to take unpaid leave under the 
FMLA. That means the folks that have benefited from the FMLA 
are disproportionately higher-wage, professional employees who 
might have some pay or cobbled-together vacation or sick time.
    There are huge disparities in who has access to unpaid--to 
be able to afford to take unpaid leave. So, that's why paid 
leave is so critical. And for low-wage workers----
    Ms. Norton. You heard Ms. Greszler argue that since--that, 
with all of these policies, low-wage people don't take 
advantage of them. Why is that?
    Ms. Shabo. So, what we are learning from the states is both 
about how the policies need to be designed to ensure that low-
wage workers are able to afford to take the leave that's 
available to them and, in fact, the programs that they're 
paying into. We've learned a lot about the community-based 
outreach and the partnerships that are needed, the materials 
that are needed to help inform low-wage workers and their 
employers about the leave policies that are available.
    I just very quickly want to say, you know, I have looked 
very closely at the Working Families Flexibility Act, the 
savings accounts, the Social Security proposal that's floating 
out there, even the CTC proposal, and there is no way that a 
low-wage worker is going to be able to benefit from any of 
those things. We've got 40 percent of workers in this country 
who don't have $400 for an emergency expense. The idea that 
they'd be able to contribute to a savings account is 
unthinkable.
    The Working Families Flexibility Act forces people to work 
or takes people's ability to work more than 40 hours in a week 
to take their comp time, their time-and-a-half, and then 
tradeoff time for that. They need those wages. They are low-
wage workers.
    So, you know, I think, in looking at the way that the state 
programs are funded, they are affordable. They can be 
accessible. We need to design them with equity in mind. And 
that goes to the wage replacement rates, the job protection 
that should go with them, and the outreach and education that's 
needed to make sure that workers know about their rights, are 
able to assert those rights. Then it's the IT systems that 
provide for the timely processing of applications and payment.
    Ms. Norton. Thank you.
    Thank you very much, Madam Chair.
    Chairwoman Maloney. Thank you.
    The chair recognizes Congressman Hice.
    Mr. Hice. Thank you, Madam Chair. And, likewise, I want to 
say congratulations to you on your first hearing, and we 
certainly wish you the best as you lead this committee. So, 
congratulations.
    Ms. Greszler, I'd like to come to you. We hear a lot about 
the support of the national paid family leave and medical, and 
I get that. I mean, it sounds wonderful. But we all know at the 
end of the day there's nothing free, and at some point this has 
an enormous cost associated with it. You brought that up in 
your opening statement.
    I'd like to hit on some of that, if we can. Whether we're 
talking higher taxes or increased debt, lower benefits, fewer 
promotions for women, there's a lot of costs associated with 
this. And once those factors are put into play--I mean, 
sometimes we hear as much as 74 percent of Americans favor this 
type of legislation. But when the costs associated with it are 
added, the popularity of this drastically begins to drop off.
    Could you elaborate on some of the details of some of these 
tradeoffs?
    Ms. Greszler. Yes. There is broad support for a paid family 
leave program if you just ask that question. But then if you 
get into what are the tradeoffs--you know, if you were asked, 
are you willing to pay $450 a week, fewer than half of 
Americans are willing to do that.
    Then when you get into trading off spending on current 
programs, which, with the tight deficits that we have right 
now, you would have to--you have less support. So, when workers 
are asked, would you be willing to trade lower Social Security 
spending or education and other--only 21 percent of people are 
willing to support a Federal paid family leave program.
    I think it's important to note, what will the cost be? 
Because we don't really know. The state programs have been so 
underutilized. In New Jersey, only one percent of people who 
are eligible for the caregiving benefit use it. Only 12 percent 
of parents who are eligible for the benefit use it.
    So, it appears that costs can be relatively small. In 
reality, if you have a Federal program and you have companies 
that start canceling their current policies and shifting those 
costs onto the Federal workers, then the cost of that program 
will expand over time, and it's not going to be a cup of coffee 
a week. And I don't see low-income workers buying cups of 
coffee a week because they don't have that to give it up. More 
like, it's going to be a tank of gas instead of that.
    You know, the American Action Forum has estimated upwards 
of $1,500 for the average worker to have a paid family leave 
program. And, as I noted, those low-income workers are not 
going to be able to use that program. It's better off to let 
them have that money and use it as they see best fit for their 
families.
    Mr. Hice. I would think also that it would impact the tax 
rate in states that implement this, at least in some states. 
Are you aware of that?
    Ms. Greszler. If you had a Federal program?
    Mr. Hice. Yes.
    Ms. Greszler. They would have to choose whether or not they 
keep their existing program, which would be a nightmare for 
businesses to have to figure out which one they're going 
through. But, yes, when you have a Federal program, the tax 
rate would start out probably relatively low and then grow over 
time.
    I've talked to some of the insurers in New York, and they 
actually go through a private insurance market. They have said, 
``We're in the business now, but we can't stay in the business 
unless they increase the tax rates. It won't be affordable for 
us.'' So, they won't be able to provide that policy.
    Mr. Hice. OK. Thank you.
    You also mentioned in your opening statement about the 
impact of the Tax Cuts and Jobs Act and how that--obviously, 
the boom in the economy, record-low unemployment, and all this 
that is out there. I know I have several businesses, many 
businesses in my district, and hundreds of them across the 
state of Georgia that are voluntarily offering multiple 
benefits, from higher wages to benefits and leave and all sorts 
of things, because they are more profitable.
    So, can you talk, from a national perspective, how the tax 
cut has affected private industry and how that really, if it's 
your opinion, is more effective than a national stamp?
    Ms. Greszler. Of course. So, it provided huge resources 
that the employers can now use to meet their employees' 
demands. A lot of those employers surveyed them and said, what 
would you like? They wanted more benefits, particularly paid 
family leave. That's why we've seen this huge growth in those 
policies.
    Everyone has pointed out today, it's in employers' best 
interest to provide these policies. You have higher retention. 
It's very costly to replace a worker. They're going to stay 
there longer. They're going to be happier. So, employers know, 
better than policymakers and bureaucrats, what's in their best 
interest. And the best way for them to be able to offer those 
policies is to have the resources to do so in a flexible way.
    A one-size-fits-all policy does not work for 28 million 
different businesses across the U.S. or 159 million different 
workers. You need a policy--just as Ms. DeLauro communicated, 
she had a policy that wasn't, you know, standard, it wasn't a 
formal policy, but it worked. It was something that her 
employer--you know, different ones at the time--were allowed to 
provide her with.
    I would love to see more of that, not having the employer 
have to say, ``Go to the Federal Government. You're going to 
deal with the bureaucrats, and they're going to tell you what 
you can get,'' but, rather, ``Let me work with you. I want to 
keep you on as an employee, and I want to make this work. Let's 
see what's flexible and what works best for you.''
    Mr. Hice. Thank you for your testimony. I yield back, Madam 
Chair.
    Chairwoman Maloney. Thank you.
    The chair recognizes Debbie Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. And my 
congratulations to you as well. It's many years of service on 
this panel, and I'm very proud of you.
    Chairwoman Maloney. Thank you.
    Ms. Wasserman Schultz. I'm proud to serve with you as well.
    I have had personal experience both with giving birth to 
all three of my children--one of whom is now a teenager and the 
others who are juniors in college--giving birth to all three of 
my children while working very full-time. I gave birth to all 
three of my children while serving in the state legislature and 
running for Congress with my third child.
    About 12 years ago, some of you know, I was diagnosed with 
breast cancer suddenly at 41 years old. One day, the picture of 
health; the next day, a cancer patient, facing my own 
mortality.
    Because I had this job, because I am in charge of the 
employment policies of my office, I was able to take the kind 
of leave, like I was in the legislature, because I didn't have 
anyone other than my constituents to answer to, and I was able 
to structure my work-life balance in order to make sure that I 
could care for my newborn babies after they were born and make 
sure that I could get myself well, all while managing the 
demands of a very demanding job.
    Most people don't have the luxury that Congresswoman 
DeLauro and I and all of my colleagues here have had. Research 
has shown that women with incomes of $75,000 per year or higher 
take an average of 12 weeks of maternity leave, while mothers 
in households with incomes of less than $33,000 per year 
frequently reported taking only six weeks of leave, not 
necessarily paid. Nearly one-quarter of U.S. women are back at 
work within two weeks of giving birth.
    Ms. Greszler, I find it troubling that you used the very 
tired argument that one-size-fits-all doesn't work for most 
employers. I want to start by asking you a few questions.
    I understand from your opening statement that you have six 
children. Were you able to take maternity leave for each of 
your children, the birth of each of your children?
    Ms. Greszler. Yes, I was fortunate to be able to take leave 
with each.
    Ms. Wasserman Schultz. And how much maternity leave were 
you able to take for each of your children?
    Ms. Greszler. I chose to take 12 weeks with each. And I had 
different policies at different times.
    Ms. Wasserman Schultz. Were you paid----
    Ms. Greszler. I was paid at least part and often in full.
    Ms. Wasserman Schultz. OK. And was it important for you to 
spend that kind of time with the peace of mind knowing that 
your salary, at least in large part, was covered during that 
time, for you to spend time with your newborns?
    Ms. Greszler. Absolutely.
    Ms. Wasserman Schultz. And do you think other parents would 
value and benefit from that time as well?
    Ms. Greszler. I do. And I think that they would value most 
from policies that are flexible and let them work with their 
employer to determine what's best.
    Ms. Wasserman Schultz. OK. Do you support a minimum wage?
    Ms. Greszler. I think that we should let the market 
determine what's the appropriate wage and----
    Ms. Wasserman Schultz. But do you support a minimum wage? 
Or do you think that we should not have a one-size-fits-all 
policy and just let the market pay anyone anything they choose 
to----
    Ms. Greszler. No, I think----
    Ms. Wasserman Schultz.--and not have a floor?
    Ms. Greszler [continuing]. A minimum wage, particularly a 
$15 minimum wage, would actually----
    Ms. Wasserman Schultz. I'm not asking you about a $15 
minimum wage.
    Ms. Greszler. I don't believe in a one-size-fits-all 
policy----
    Ms. Wasserman Schultz. Do you believe----
    Ms. Greszler [continuing]. Because we have unique----
    Ms. Wasserman Schultz. Excuse me. Reclaiming my time. Do 
you believe in a minimum wage?
    Ms. Greszler. No.
    Ms. Wasserman Schultz. Not at all? You don't think that we 
should require employers to not allow employees to fall through 
the holes without a minimum wage?
    Ms. Greszler. I think that we should let workers work at 
whatever wage that they choose to negotiate with their 
employer.
    Ms. Wasserman Schultz. OK. Well, that tells you all you 
need--all we need to know about your views.
    You know, and you've said you don't think a one-size-fits-
all program works, but most people in America don't support a 
one-size-fits-all wage, because we know what kind of poverty 
people would be thrown into if that's what we allowed.
    What you have to offer, on the other hand, is nothing at 
all for millions of Americans. And some, often the more 
affluent, will be lucky like you were, but many more, likely--
80 percent of workers, in fact--will not.
    Ms. Greszler, I don't buy your argument that it is too 
difficult to have a national standard that will work for all of 
our citizens. We must make sure that women, parents have the 
benefit of the benefit that I had, that I could choose to have, 
regardless of their income, regardless of their employer. And 
we do need a floor through which we are not going to allow 
people to crash through when they have unexpected illness or 
give birth to children, that every parent, regardless of income 
or their employer, deserves to be able to work for someone who 
is required to give them a minimum of paid family leave.
    Thank you. I yield back the balance of my time.
    Mr. Hice. Madam Chair?
    Chairwoman Maloney. For what purpose does the gentleman 
wish to be recognized?
    Mr. Hice. Thank you. I have a unanimous request to submit 
four articles of four different companies that, because of the 
tax cut bill, are providing family leave. I have Southwire to 
pay----
    Chairwoman Maloney. Without objection. Without objection. 
I've seen the articles. They can go into the record. Thank you.
    Mr. Hice. Thank you.
    Chairwoman Maloney. I now recognize Mr. Grothman.
    Mr. Grothman?
    Mr. Grothman. Sure. I'll have a couple--or look for a 
little bit more from Ms. Greszler.
    I guess there was--IRS data was done to do a study of 
California's 2004 paid family medical leave and its effect on 
women's careers. I'd like to--you're familiar with the study, 
correct?
    Ms. Greszler. Uh-huh.
    Mr. Grothman. I'd like you to elaborate a little bit on it 
and what we can expect to be the effect on women's careers of a 
more proscriptive family medical leave law.
    Ms. Greszler. So, there was a recent, somewhat 
groundbreaking study in California. This study was different 
from others because they were actually able to obtain IRS data, 
and so it's better reporting, and you also had more than twice 
the sample size of previous studies.
    What they found there, comparing women, you know, who had 
babies six months apart before and after when California's paid 
family leave policy was enacted, those who utilized the benefit 
afterwards compared to those who didn't, those women had seven 
percent lower employment rates and eight percent lower 
earnings. Oddly, their fertility rates actually were lower as 
well. They did find that they were spending more time at home 
with their children as a result of that paid family leave law.
    Mr. Grothman. OK. But, in other words, what you're showing 
me is there are unintended consequences of this law that only 
came out with a comprehensive review of tax returns.
    Ms. Greszler. Correct.
    Mr. Grothman. OK.
    Right now, Federal Government has a hodgepodge of 43 
different paid leave days, correct?
    Ms. Greszler. Yes. Federal workers have 13 days of sick 
leave that can roll over every year. You can use 30 days of 
advance sick leave. And they can also access a paid-sick-leave 
pool.
    Mr. Grothman. OK. Could you explain how that compares to 
the private sector right now?
    Ms. Greszler. I think, on the average, the private sector, 
the most that they have for paid sick days is about 10; 
vacation days, similar, about 10, you know, two to three weeks, 
whereas the Federal Government offers three to four weeks.
    Mr. Grothman. OK.
    Could you speculate--and maybe it's an unfair thing to do. 
That California study intrigues me. Could you speculate on why 
you got those kinds of, I guess--I think the other members of 
the panel would consider unexpected results?
    Ms. Greszler. I think women taking more time off, staying 
home with children, some of them make the decision that they 
are going spend more time at home. Maybe they only went back in 
a part-time capacity or they stayed out of the labor market 
entirely.
    You also had higher-income women that are using those 
benefits, as we saw that it's just not as readily available to 
lower-income women. They don't know about it. A partial benefit 
doesn't let them pay the bills. There's more fear about 
discrimination or their job not being there.
    So, it has to do, I think, with the different usage rates 
and also just the decisions that women choose to make.
    Mr. Grothman. Could you comment in general as far as the 
number of high-income versus low-income women who take 
advantage of these benefits?
    Ms. Greszler. Well, in California, I believe that they had 
five times as many people in the highest income bracket 
compared to the lowest income bracket for women that were using 
the program. I'm not sure across the board what the figures 
are, but, consistently, everywhere, that's what we find. And 
that's what I'm most concerned about.
    I would like to reiterate to Mrs. Wasserman Schultz, I 
agree, we should be looking at the impact on low-income 
individuals, because that's who we all would like to help here. 
And what I'm trying to point out is that these policies 
actually don't benefit the low-income individuals. They tax 
them, and then they are not able to use them.
    So, I would love to work with everybody in this room to see 
what policies would actually benefit those low-income workers.
    Mr. Grothman. I guess--you know, we get briefings on this, 
and everything's focused on the women, the women, the women, 
which is good. Could you give us----
    Chairwoman Maloney. That is good.
    Mr. Grothman. Were there any analysis on the man's side of 
the effect of this law?
    Mrs. Wasserman Schultz. Can we give him another five 
minutes?
    Ms. Greszler. Well, no, it is important, because I think 
people can look at this as just a parental leave and a 
maternity leave issue, and, actually, four out of every five 
leaves that are taken are not parental leave but they're for a 
worker's own illness or caregiving.
    There's not a whole lot of evidence, at least in the state-
based programs, but, generally speaking, government policies 
encourage more men to take paternity leave, but, again, it's 
the upper-income earners that are more likely to take it.
    Mr. Grothman. Are there any statistics you could get from 
the California study on how this impacts men?
    Ms. Greszler. Yes. I could share those with you after the 
hearing.
    Mr. Grothman. OK.
    I, as well, have some articles that I'd like to submit to 
the committee. Is that OK?
    Thank you.
    Chairwoman Maloney. We've reviewed them. Without objection. 
I now recognize Congresswoman Kelly.
    Ms. Kelly. Thank you, Chairwoman Maloney. I want to say 
congratulations to you, and I look forward to you being the 
chair. Get a lot of rest and relaxation in between.
    We often think of paid leave as being important for new 
parents, but it's just as important for workers who need to 
care for a sick child, spouse, or relative or for themselves.
    Ms. Silvani, let me start with you. When your son was 
diagnosed with cancer in 2015, you took unpaid leave of absence 
to care for him. How did his illness impact your family?
    Ms. Silvani. How didn't his illness impact my family? He 
was very sick. My other two children didn't know what was going 
on with their brother. Once Joe was out of treatment, my 
children needed mental health support.
    I didn't have paid leave at that time either to help them 
deal with their brother's illness. So, to not have that time to 
be able to take care of our family as a whole was very hard for 
our family.
    Ms. Kelly. So, the sickness of one impacts----
    Ms. Silvani. Of course.
    Ms. Kelly [continuing]. Many people.
    Ms. Silvani. Of course.
    Ms. Kelly. And hopefully I'm saying your name right, Mr.--
is it ``Seyedian''?
    Mr. Seyedian. It's ``Seyedian,'' but that's fine.
    Ms. Kelly. ``Seyedian.'' No, no, I want to get it right. 
You started a small business with the goal of treating your 
employees better. You paid them a living wage; you offered 
comprehensive benefits, including paid medical leave.
    I understand you also had a personal health crisis that 
motivated you to start a business with this goal. Can you talk 
about how your concussion set you back and how difficult it was 
to address your own health needs?
    Mr. Seyedian. Sure thing. Yes. A few years back, when I 
worked in consulting, I sustained a concussion. I wasn't able 
to work, primarily because, you know, staring at a bright 
screen, reading words, all that kind of stuff, that's 
prohibited when you're trying to recover from a head injury. 
So, I ended up taking more than a few months off of work. I was 
able to do so because of the kindness and benevolence of my 
employer and their forward-thinking in having a disability 
policy in place.
    Likewise, the same is true for my own employees at Well-
Paid Maids. But, you know, ultimately, this kind of thing 
shouldn't rest on having an employer that, you know, is 
thinking forward about something like this or is kind of 
enlightened on this subject.
    Ms. Kelly. Thank you.
    And, Ms. Tucker, turning to you, you mentioned in your 
written testimony that you served as a caregiver for your 
mother and your sister while raising a family, meaning you are 
part of the sandwich generation.
    What does access to paid family and medical leave mean for 
communities of color, whose families are more likely to be 
intergenerational and whose members are more likely to take on 
caregiving responsibilities as a result?
    Ms. Tucker. That is so correct; our families are more 
likely to be intergenerational. Paid family leave would mean 
that families would have a cushion, an ability to take some 
time, even with that reduced salary, to do what they needed to 
do with their ill family member.
    We know that a quarter of young African American 
millennials between the ages of 18 and 35 are caregivers. And 
many of these caregivers are earning $30,000 annually. I 
believe this is because they are in jobs that allow them to 
take care of the family member. So, this means that their 
earning power over their lifetime is stunted starting at the 
starting gate.
    Ms. Kelly. Thank you.
    Thank you for sharing your stories. Many people across the 
United States can relate to them. Dealing with a medical 
condition or health crisis is scary and stressful, and it can 
already be financially crippling without losing your income.
    I know, when I entered Congress, I represent the 2nd 
congressional District of Illinois, and I had the highest rate 
of foreclosures in my area because of healthcare issues. 
According to one recent study, 42 percent of new cancer 
patients lost their entire life savings within two years 
because of the cost of treatment.
    Ms. Shabo, how does a lack of access to paid medical leave 
compound how much it already costs workers when they or their 
family members are sick, even when they have insurance?
    Also, when my colleague was asking a question, you kind of 
made a face, so I didn't know if you wanted the opportunity to 
respond to the answer.
    Ms. Shabo. Ah. I'm not sure which question that was, but I 
have lots of facts and opinions.
    On the point about the caregiving, you know, I think there 
was a fantastic new study that was released last week by the 
National Alliance for Caregiving and Caring Across Generations, 
which showed that more than half, I think three-quarters, of 
people who are caring for both a loved one and a child are Gen 
X, which is my generation--and I'm dealing with this, myself, 
now--or are millennials.
    So, as we're thinking about how do we provide for the 
financial security and stability of this incredibly important 
cohort of folks that are going to be with us and in our work 
force and in our communities for a long time, how do we make 
sure that we're not piling on medical debt, lack of access to 
paid leave, student debt, high housing prices, and wages that 
aren't growing.
    How do we make sure that--you know, the research tells us 
that when cancer patients, in particular, have a family member 
that's taking them to--and involved in their treatment, when 
workers themselves are dealing with a cancer diagnosis and able 
to take treatment and then recover, they're more likely to get 
better, they're more likely to go back to work.
    The cost savings around healthcare and the access to paid 
leave are integrally related. I believe that this is a feature 
of this whole conversation that doesn't get talked about very 
much.
    But, certainly, you know, medical debt, healthcare costs--
these all could be alleviated with better access to paid leave 
so that caregivers and people themselves can get care.
    Ms. Kelly. Thank you. I yield back the time I don't have.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Representative Comer.
    Mr. Comer. Thank you, Madam Chair. I, too, want to 
congratulate you on your new position as chairperson of this 
committee.
    I think I'm confident that all of us in Congress, on both 
sides of the aisle, are sympathetic to those families who have 
children and those families who are put in a terrible position 
of having to be a caregiver for other family members.
    I also think that, in Congress, those of us who represent 
extreme levels of poverty are also sympathetic to the working 
poor. I represent southern Kentucky, so my district's very 
vast. I represent the eastern part of the state that has 
Appalachia. I represent the far western part of the state that 
has the Mississippi River Delta, two of the poorest regions in 
America. We have countless stories of working poor struggling 
to provide for their families. I'm very sympathetic to that, 
and I want to help the people that I represent that are doing 
everything right.
    But there are two schools of thought to how we proceed to 
help these working families. The first school of thought has 
been elaborated by my colleagues on the left: more government 
solutions, government mandates, increase the minimum wage. 
These are plans that have been in place for decades, and they 
really haven't worked. They really haven't served those areas 
of extreme poverty in my congressional district.
    And there's another school of thought that I feel like 
we've tried to employ over the last three years in Washington, 
and that's more of a market-based solution where we focus on 
trying to grow the economy. I believe, if you look at where we 
are today, we've been very successful, with the passage of the 
Tax Cuts and Jobs Act, with President Trump and the last 
Congress's efforts to focus on burdensome regulations, to try 
to get the government out of the way, to grow the economy, to 
provide more opportunities for all Americans.
    We have a situation now where we have maximum employment in 
this country. I don't think anyone would disagree, whether 
you're the most liberal Member of Congress or the most 
conservative Member of Congress, that the biggest complaint we 
hear from our employers today is they can't find workers. The 
one thing that's holding the economy back today is the fact 
that businesses and employers are hesitant to invest additional 
capital because they're not confident they can find workers to 
fill those positions.
    So, we have a situation where we're having maximum 
employment, which has led to wage inflation. So, this is 
something that's happened through the market, not through more 
government laws, not through government mandates--wage 
inflation.
    Ms. Greszler, I want to ask you, how do you feel that the 
Tax Cuts and Jobs Act has impacted employers and families?
    Ms. Greszler. Well, we've seen on the employer side that 
they're able to raise wages and benefits and offer more jobs. 
And I'd like to highlight, just in this last month, we heard 
that over the last year the group of marginally attached 
workers and those who are discouraged, who I think a lot of--
would apply to a lot of those in your district, that fell by 25 
percent in one year. That's because they have job availability. 
It's not just low-wage jobs; it's ones that provide higher 
opportunities.
    In my opinion, those workers are far better off being 
handed $1,500 in wage gains over one year when they're earning 
a $25,000 salary than having the government take that same 
amount and tell them that they're going to provide them with 
these benefits, when they might not be benefits that they want 
to have.
    Mr. Comer. I agree.
    According to the Society for Human Resource Management, 20 
percent of employers in 2019 offered family leave beyond what 
is required by FMLA. This represents a six percent increase 
from the prior year. Do you think this trend will continue?
    Ms. Greszler. Exactly. We're on this upward trend. There's 
a strong economy. The tight job market means that the employers 
have to compete. They see the value in offering those benefits, 
because they can get the workers that they need and they can 
retain them. So, I think that this is not the time to stop that 
upward growth.
    Mr. Comer. I agree.
    And I'll conclude by saying this, Madam Chairman. I think 
that when we have a situation like today, where we have maximum 
employment, and employers are competing for employees, the 
businesses that take the best care of their employees are going 
to win the battle of the best employees.
    So, I feel like we're on the right track in America, and I 
hope that we can continue the pro-growth agenda that has led to 
unprecedented prosperity. But there are still lots of pockets 
of poverty in America, lots of families that are struggling, 
and those are the people that we certainly need to focus on. I 
think the solution's a market-based solution.
    Madam Chair, I yield back.
    Chairwoman Maloney. Thank you.
    The chair recognizes Representative Lawrence, one of the 
co-chairs of the Women's Caucus that has prioritized this 
issue.
    Mrs. Lawrence. I want to thank you, Madam Chair. And 
congratulations. It's wonderful to be able to add a man to 
the--I mean, a woman to this wall of men as the chair of this 
caucus--this committee. I also want to thank you for being a 
champion of this issue.
    As stated, I have the honor to serve as the bipartisan and 
Democratic women's co-chair for this Congress. The issue of 
paid family leave is something I hear frequently about, 
ensuring that women and family and parents have the ability to 
preserve their economic security while continuing their 
employment in this country.
    One of the things that troubles me, Ms. Greszler, it's an 
oxymoron. You're saying that because of this tax cut that many 
workers have not received, although there has been a tremendous 
increase in pay to stock owners or boards--if they have more 
money, it should equate to embracing providing paid family 
leave.
    You stated one of the challenges we have is because poor 
and minority families struggle the most with being in this 
sandwich position of taking care of a sick child and taking 
care of a sick parent. But what is something that is not being 
talked about is that, for women, maternal mortality in the 
United States is one of the highest in the world. And one of 
the major contributing factors to that is the lack of 
childcare, because women do not have the flexibility to take 
off from work to attend all the prenatal care.
    The reality, if I'm making $8 an hour--and how dare you say 
you don't support $15 an hour. Because if you don't, you are 
stating that poverty in America should be a reality. How can 
we, as a country who consider ourselves so great, embrace a 
philosophy and a standard that impoverishes people in America? 
And women are the largest group of those who are impoverished 
by this low wage rate in America. That's one issue.
    The second issue is that when we, as a country, understand 
that the only way that we increase the population in this world 
is through childbirth and that there is a need for a woman to 
be able to take time off--and God help her if she has a child 
who's sick. And so, after the birth of the child, continuously 
having to care for that child, that can be the father, that 
could be the mother, that could be a same-sex couple. All of 
the issues that goes with caring with a sick child. We, as the 
sophisticated, major force of democracy in this world, should 
not be one of the last to say that every person working and 
trying to provide for their family, regardless of their income, 
do not have access to paid family leave.
    I want to ask a question to Ms. Shabo. How many workers 
across the country currently have access to paid family and 
medical leave benefits?
    Ms. Shabo. So, today, 19 percent of workers have access to 
paid family leave. That's to care for a new child or a 
seriously ill loved one.
    Mrs. Lawrence. And how current is that data?
    Ms. Shabo. That is from March of this year.
    Mrs. Lawrence. So, March of this year, the big, amazing, 
fix-all pay cut happened.
    Ms. Shabo. Yes.
    Mrs. Lawrence. Did that have a major increase on providing 
this benefit to American----
    Ms. Shabo. No.
    Mrs. Lawrence [continuing]. Workers?
    Ms. Shabo. No.
    In fact, you know, more to the point of low-wage workers, 
over the past five years, we've seen access increase from 13 
percent to 19 percent overall, so a six percent increase. Among 
the lowest-wage workers, it's gone up by two points; among the 
highest-wage workers, it's gone up by 12 points. So, we're 
seeing the divergence in access to benefits actually increasing 
exponentially.
    So, this idea that, sort of, the tax cut or any other 
factors related to employment and the economy is going to lift 
the boats for the lowest-wage workers just isn't borne out by 
the data.
    I'd like to point out, in the SHRM data that the 
Congressman cited, that 20 percent now have access to benefits, 
that means 80 percent don't.
    Mrs. Lawrence. Exactly.
    Ms. Shabo. So, I am very concerned about the 80 percent. 
I'm extremely concerned about the 94 percent of low-wage 
workers. And that's who we need to be focusing on.
    The idea that, you know, any of the half-measure solutions 
or solutions that are rooted in austerity rather than in new 
investment just doesn't play out in terms of people's access to 
the benefits that we're looking for them to have.
    Mrs. Lawrence. I want to close with this.
    Ms. Norton.
    [Presiding.] Your time has--the lady's time has expired.
    Mrs. Lawrence. May I----
    Ms. Norton. And the next witness is Mrs. Miller.
    Mrs. Miller. Thank you, Madam Chairwoman.
    And thank you all for being here today.
    Ms. Silvani, I want to express my empathy to you. There is 
nothing more frightening than when one of your children are 
sick. And I'd glad that little Joe is doing so much better.
    The topic before us today is multifaceted and extremely 
personal. Likely, the issue of leave has impacted each of us, 
our spouse, our sons and daughters at some point in our lives.
    Through the enactment of the Tax Cuts and Jobs Act, we have 
seen businesses not only increasing the pay of workers but also 
increasing benefits such as family leave. The President and his 
administration have worked to cut regulations to ensure a more 
prosperous economy. It is amazing to see the positive 
advancements that happen when we free businesses from over-
taxation and burdensome regulation.
    Madam Chair, I would ask unanimous consent to offer a study 
about California's paid family leave into the record. 
Representative Grothman mentioned it, and I think it's 
important that it should be included.
    Ms. Greszler----
    Ms. Norton. I won't object, but I'll ask that we be able to 
see that.
    Mrs. Miller. Absolutely.
    Ms. Norton. It has not been given to us. I certainly have 
no objection.
    Mrs. Miller. Thank you.
    Ms. Norton. Without objection, so ordered.
    Mrs. Miller. Thank you, ma'am.
    We have seen the unemployment decrease to 3-1/2 percent. We 
now see employers competing to find good workers. How has the 
strong economy under President Trump impacted the benefit 
packages that companies can now offer?
    Ms. Greszler. Well, not only have we seen more people have 
availability to jobs--and you can't have a good benefit package 
until you have a job--but we've seen a large increase in the 
number of companies that are offering paid family and medical 
leave benefits. More than 100 large employers have now come out 
offering these benefits. And these are not just the upper 
tiers, the consulting firms; these are the Lowe's, the Target, 
the Starbucks that typically employ lower-wage workers, who all 
now have access to these paid family leave benefits.
    Mrs. Miller. In your testimony, you mentioned that record-
low unemployment is providing opportunities for marginalized 
workers. Can you expand on that?
    Ms. Greszler. Yes. And this is why I want to iterate that 
the strong economy is better than something like imposing an 
excessively high, one-size-fits-all minimum wage. The evidence 
has shown that when you impose high minimum wages, you crowd 
out the employees who are the least marginalized and those who 
have the hardest time finding a job. It's the lower rung of the 
ladder that gets cutoff, and those workers have no 
opportunities then.
    On the other hand, if you provide pro-growth policies that 
let employers have more benefits to offer to create new jobs, 
they have opportunities to draw more workers into the labor 
force.
    And that's exactly what we've seen. We've seen people who 
were disabled before, who were discouraged and just gave up on 
finding a job, and now there are hundreds of thousands of them 
that have jobs, that are supporting themselves, and that have 
the benefit of seeing that paycheck that they get, as opposed 
to relying on a government benefit. You know, that's kind of an 
intangible value to them, to be able to provide for themselves 
and to have choices and flexibility over what they're doing 
with their money.
    Mrs. Miller. Thank you.
    You also discussed how wage growth has helped contribute to 
reversing income trends contributing to inequality. Can you 
elaborate on how the current economy has done this?
    Ms. Greszler. Yes. And I just wanted to actually point to 
my written testimony there, because I think there is, based on 
the recent jobs report--you know, I'm quoting here from the 
Council of Economic Advisers that said that ``from the start of 
the current expansion through the end of 2016, average wage 
growth for production and nonsupervisory workers lagged that of 
managers, the bottom 10 percent of wage earners lagged that of 
the top 10 percent, those without a college degree lagged that 
of college graduates, and African Americans lagged that of 
White Americans. Since President Trump took office, each of 
these trends has been reversed, contributing to lower income 
inequality.''
    And these are the types of pro-growth, free-market policies 
that are bringing the bottom end up. And those people who have 
been marginalized before, they are benefiting the most from 
this. And it's not having the government come in and tell them 
that they will provide them with a benefit and take more of 
their money away so that they don't have these choices. It's 
just letting the economy grow and letting mutually beneficial 
exchanges between workers and employers help boost everybody.
    Mrs. Miller. I understand that the private-sector approach 
is better than a one-size-fits-all approach. How can we 
encourage innovation and leadership in the private sector in 
terms of paid family and medical leave?
    Ms. Greszler. There are lots of things that we can do 
without a government program.
    You know, the Working Families Flexibility Act, all it does 
is it lets private-sector workers have access to the same thing 
that state and local workers have right now, and that's the 
choice between, if you work overtime hours, would you rather 
take time-and-a-half of paid leave or would you rather take 
that time-and-a-half of pay. It doesn't force anything upon 
anyone. And if you are a parent, particularly a single parent, 
that time off is a lot more valuable, in many cases, than just 
having a higher paycheck.
    There are other things that we can do to encourage among 
employers. With Ms. Silvani's case, I was thinking of my 
brother-in-law and my sister-in-law, and he's a school teacher 
as well. In his situation, they had a paid-sick-leave pool. 
They had a daughter that was born weighing a pound, and they 
had to have, you know, extended time off. She was an hour away 
from where they were. And he had access to that; you know, 
other workers were volunteering. I would love to see more 
employers, particularly larger ones, to say, we're going to set 
up a pool----
    Chairwoman Maloney. [Presiding.] The gentlewoman's time has 
expired.
    Mrs. Miller. OK. Thank you.
    Chairwoman Maloney. Thank you.
    I ask unanimous consent to yield one minute to 
Representative Lawrence, who wants to thank her constituent 
who's on the panel.
    Mrs. Lawrence. I want to say that it is very important that 
we understand the role of government, and to thank all of you 
for coming out and each role that you play and adding light to 
this issue.
    I count on government for a number of things. And to say 
that we don't need government to intervene on an issue that is 
going to be transformational for the quality of life of 
Americans is something that I feel very strongly about.
    I have a dream, as well, for this great country, and I try 
to keep hope alive. But I know that I have to take action and 
do the work. It is clear that only a comprehensive approach 
like the FAMILY Act will protect our workers, and I urge all of 
us to support it.
    Thank you, Madam Chair.
    Chairwoman Maloney. Thank you so much.
    The chair now recognizes Ms. Tlaib for her questions.
    Ms. Tlaib. Thank you, Chairwoman. I really do appreciate 
this hearing. This is a very, very important issue for my 
district, which is the third-poorest congressional district in 
the country. And I really do appreciate your leadership on this 
and for this to be one of your first-ever committee hearings on 
House Oversight.
    I do want to just clarify something that some of the 
members on the other side of the aisle have been pointing to. A 
recent study on long-term effects of California's paid leave 
program found that first-time mothers who used the policy had 
lower employment and wages 10 years later.
    Ms. Shabo, how would you--I would like to ask you about 
this specific study, because I don't want people to mislead the 
public in regards to this, especially because, you know, I look 
at studies, polling, everything, and sometimes it doesn't match 
up with what's actually happening on the ground.
    So, were there any limitations to the scope of this study 
that you could shed some light to, so that we can have the 
facts before us and not make any misleading comments?
    Ms. Shabo. Yes. Absolutely.
    So, this study is interesting. It is an outlier. Many, many 
studies in California using different methodology have shown an 
increase in both labor force attachment and earnings over time.
    I think what's interesting and limiting about this study is 
that it studied the very first cohort of women who took leave, 
who had the additional six weeks of leave available, in 2004, 
the third quarter of 2004 specifically, and followed the 
earnings of that cohort over a five-year period and then a 10-
year period.
    Now, there might be something unique or special about that 
first cohort of women. There also might be different effects--
so, when the California law first went into effect, the men's 
share of leave-taking was less than 15 percent. So, of all the 
baby-bonding claims that were taken, men only took 15 percent 
of those. Now we're above close to 40 percent.
    So, there are trends in gender equity that have changed. 
So, we don't know how that study would bear out if it was 
repeated, you know, on data----
    Ms. Tlaib. And, Ms. Shabo, in fact, there have been other 
studies conducted of California mothers----
    Ms. Shabo. Yes.
    Ms. Tlaib [continuing]. That show that paid leave had a 
positive impact on the work force. Isn't that correct?
    Ms. Shabo. Yes, absolutely, and a particularly substantial 
effect on Latina women and low-wage women. So, it is not right 
to focus everything on this one particular study.
    The other thing that this study really shows is that we 
need to think about how we make policies accessible for men, 
how we encourage men's leave-taking; how we pair childcare, 
better access to quality, affordable childcare for parents; and 
how we think about part-time parity and the wages and benefits 
and opportunities for people who do choose to work less than 
full-time.
    The other limitation of the study is that it didn't include 
self-employment income, and yet one of the author's hypotheses 
was that some of these women moved into gig work and into less 
formal employment relationships so that they could spend more 
time, but we don't know the effects of those wages or that 
income on their outcomes.
    Ms. Tlaib. Thank you. I do appreciate that.
    One of the things I know is really critically important is 
to try to bring people in this room that are not here 
physically. And many residents in my district can't afford to 
come here or to speak up, because they're working right now. 
And one community of caregivers who are often left out of the 
paid family leave conversation are families who have members 
with disabilities and special care needs. And I want to shed 
light to the unique experiences for many of those parents.
    I want to share a story of one of my residents. She's the 
mother of three, and one of her boys, Isaiah, was born with 
liver disorder. After receiving a liver transplant, his mother 
started working as a server to help provide for her family. And 
she was very upfront with her employer about having a child 
with special needs. One particular day, after this employer 
refused to let her leave early to take care of her son, she was 
forced to prioritize help for her son and left her shift early, 
which resulted in her getting fired.
    As it stands, her son Isaiah takes eight medications daily 
and goes to the hospital at least once a week to check his 
liver blood levels.
    If the U.S. had an inclusive paid leave policy, not only 
would it keep my, you know, resident, this mother, to still 
have a job, but she would've been able to confidently work 
without her livelihood being threatened on a regular basis.
    Ms. Shabo, can you elaborate on the unique difficulties 
that families with special-needs children have?
    But, also--and this is something that I really think our 
country needs to look at--to me, this is a form of 
discrimination. Yes, that mother may not be the one with 
disability, but the fact of the matter is that the 
discrimination toward her, which is due to because of the loved 
one and because of the fact that she's a caretaker, I feel like 
it needs to extend in protecting those caregivers, that this 
is, again, a form of discrimination.
    And we know--and, Chairwoman, I consistently was also 
asked, as a young person applying for jobs, whether or not I 
was going to have children, which was----
    Ms. Shabo. Illegal.
    Ms. Tlaib [continuing]. Illegal, right?
    Ms. Shabo. Yes.
    Ms. Tlaib. But I do think, you know, people are going to 
push forward and say, ``Well, you have a child with special 
needs. I'm not going to hire you.''
    So, if you can talk a little bit about that, I really would 
appreciate that.
    Ms. Shabo. That's right. There's a couple of really good 
studies out there about the multiple impacts that affect 
parents and other caregivers to special-needs children and 
other people with disabilities, the relationship between the 
income in those households, the expenses of those households, 
and lack of access to leave.
    I think the other thing that just strikes me, as we think 
about policies that would exclude those families, you know, we 
hear a lot about one-size-fits-all policies, but I think the 
ultimate one-size-fits-all policy would actually be a policy 
that only applies to new parents and not to all of the people 
who need leave for their own serious health condition or to 
care for a family member.
    To say that that caregiving is less beneficial or less 
worthy of investment just strikes me as the ultimate 
discrimination, as you say.
    Chairwoman Maloney. OK. Thank you.
    Congresswoman Pressley is recognized.
    Ms. Pressley. Thank you, Madam Chair, for holding this 
critically important hearing and for your continuing leadership 
on behalf of working families across our country.
    I also want to thank Congresswoman DeLauro for her 
steadfast leadership on this issue and for sharing her story 
earlier, which we know is the story of millions of Americans.
    It is simply appalling that the United States continues to 
be one of only two industrialized nations in the world without 
any form of paid family leave. It is shameful. And this reality 
continues to place undue burdens on families already struggling 
to make ends meet--households disproportionately led by women, 
already struggling to get by while wages are stagnant and 
lingering gender and racial pay gaps persist.
    Current policy is simply out of touch with the fact that, 
at some point, virtually every person, every working person--
because hardship does not discriminate--will need to take time 
away from a job to fulfill caregiving responsibilities, to 
recover from a serious injury or a disruptive life event.
    While I was a caregiver to my mother in the final throes of 
her leukemia battle, making decisions by the hour about how to 
extend her life, while doing my best to center her dignity 
throughout that process, battling cancer while also battling 
bill collectors, and along with the trauma of such a 
devastating life event, it was as if seeing my mother, Sandy, 
facing her final days wasn't already hard enough.
    So, my experience is not unique. In fact, there are more 
than 34 million caregivers who provided unpaid care to a parent 
or a relative in the last 12 months alone.
    So, Ms. Tucker, thank you so much for sharing your story 
earlier today. Can you share what the day-to-day of caring for 
your mother entailed?
    Ms. Tucker. I can. You know, it was tough. It was tough to 
try to make the arrangements that we needed to make for her 
care, especially as she aged, because this was over a 10-year 
period. It was tough finding doctors who she felt comfortable 
with.
    Being a part of the sandwich generation, having a child who 
would come with me every day to the nursing facility that she 
spent her final year in because she had gotten to a point where 
she needed care, and I remember one time my daughter saying to 
me, ``Do we have to come every day to see Grammy?'' Well, that 
was pretty devastating.
    It was tough dealing with the financial aspect of this. My 
mother was a retired teacher, so she had some savings and she 
had a monthly income from her retirement and from her Social 
Security that lightened that load. But there was nothing easy 
about----
    Ms. Pressley. Sure.
    Ms. Tucker [continuing]. About it. And----
    Ms. Pressley. It was all-consuming.
    Ms. Tucker [continuing]. I was on my own to find the 
resources that we needed each time she had a crisis and we 
needed to go to the next level of care.
    Ms. Pressley. Thank you.
    And it's my understanding that you also cared for your 
sister----
    Ms. Tucker. Yes.
    Ms. Pressley [continuing]. After she suffered a severe 
spinal cord injury as well. So, how did you manage serving as a 
caregiver for both your mom and sister? And how did this impact 
your financial situation? And are you still recovering?
    Ms. Tucker. That's a lot of questions there----
    Ms. Pressley. I'm sorry.
    Ms. Tucker [continuing]. And a lot to unpack.
    Well, lucky for me, these illnesses, these events didn't 
occur at the same time. My sister's accident or bleed occurred 
five years after my mother's death. So, we had time to kind of 
hang out before she became really ill with her spinal cord 
injury, which is what it was.
    And, again, when I think back on it, I don't know how I did 
it. I just found the resources that I needed to do it, and I 
was in a place where I had the flexibility with work to do it. 
I had vacation time and I had sick leave. And I'm one of those 
people who's always at work, so I had accumulated a lot of 
leave that allowed me to pinch off the three hours I needed to 
go to the hospital before coming to work. And it was a quilt, a 
patchwork of using leave and thinking it through.
    Ms. Pressley. Sure.
    Ms. Tucker. In terms of support, I had a supportive family 
and a supportive spouse at the time that helped to make it 
easier, and I was in a two-income household that helped to make 
it easier. But it meant that I was up late looking at the 
numbers, trying to figure out how we were going to make it 
happen. And we almost used up all of my mother's savings before 
she passed away.
    Thank you.
    Ms. Pressley. Thank you.
    Chairwoman Maloney. Thank you.
    The chair recognizes Mr. Raskin.
    Mr. Raskin. Madam Chair, thank you very much. And 
congratulations to you----
    Chairwoman Maloney. Thank you.
    Mr. Raskin [continuing]. On your first hearing. And I know 
that this will be an important landmark for you, the way that 
it was an important landmark for Chairman Cummings when he had 
the prescription drug reform hearing as his first hearing of 
the new Congress.
    Let's see. Mr. Seyedian, I want to just go back to this 
question about the tax cuts. Some of our colleagues have 
suggested that the trillion-dollar tax cut for the wealthiest 
corporations and people has provided paid leave benefits to 
workers.
    And I know there was a limited temporary tax credit for 
employers who provide two weeks of paid leave that was built 
into the legislation. But is there any evidence that this 
trillion-dollar tax cut has actually made a structural 
difference in people's ability to get family and medical leave?
    Mr. Seyedian. Not that I'm aware of, and certainly not in 
my experience. I mean, I certainly as a small-business owner 
don't feel the effects of that law, I would say.
    Mr. Raskin. OK.
    And is there anybody who has any structural evidence or 
data about this point, whether this tax cut suddenly 
transformed things? Because what I'm getting is, rather, the 
report that millions and millions of Americans are still 
without family medical leave and it's a crisis for people.
    Ms. Shabo?
    Ms. Shabo. Yes. You know, anecdotally, in talking to 
business associations and business owners, survey data from EY 
which asked business owners whether they would take up this tax 
cut, there is no evidence that this tax cut has had any 
appreciable effect.
    And my favorite, sort of, anecdote, actually, is that the 
only company that I know of that has said in the press that 
they expanded their leave policy because of the tax cut is 
Rolls Royce.
    Mr. Raskin. OK.
    Let me stick with you for a second, because I have three 
children, who are the light of my life, along with my wife, and 
the apple of our eye, and I consider it, obviously, a 
profoundly meaningful thing to be into parenthood, and I'm a 
cosponsor of the legislation to create family medical leave. 
But I do get questions from constituents, and not just right-
wing Republicans--you know, there are people who are concerned 
about the environment and climate change who say, ``Should we 
be, as a society, subsidizing the act of having children, when 
we have concerns about population and we've got concerns about 
climate change and the carrying capacity of the Earth?''
    What is the argument you make about the importance of this, 
not just those of us who have children, for people who for 
whatever reason choose not to or don't have children?
    Ms. Shabo. Well, part of the reason that the inclusive and 
comprehensive nature of the FAMILY Act, which covers all of the 
FMLA caregiving reasons, is the right approach is because there 
are some people who will never have children, but they do have 
parents. Everybody has a parent. Everybody is a child, if you 
are here. Everybody has somebody that they need to care for or 
may need to care for themselves.
    In terms of the value of paid leave to the care of children 
and to the well-being of children, we know that access to paid 
leave affects brain development and child outcomes. It means 
children are more likely to be taken to the doctor, to get 
immunizations. There's a study from California about reduced 
head trauma. There's a study about reduced ADHD and better----
    Mr. Raskin. So, it benefits society generally----
    Ms. Shabo. Yes.
    Mr. Raskin [continuing]. When we take care of children?
    Ms. Shabo. And people are going to have children anyway. We 
need people to have children----
    Mr. Raskin. Yes.
    Ms. Shabo [continuing]. Because we need a work force of the 
future. But what we need to be able to do is invest in those 
families and those children so that we provide the best 
possible opportunities----
    Mr. Raskin. OK.
    What are the specific benefits that a new mother gets under 
the paid parental leave policy?
    Ms. Shabo. So, a new mom under the FAMILY Act would have 
access to 12 weeks of paid leave at 66 percent of her wages.
    The evidence shows women who have access to paid leave have 
higher rates of breast feeding if they're----
    Mr. Raskin. Yes.
    Ms. Shabo [continuing]. Able to breast feed, reduced rates 
of maternal depression, certainly a connection to maternal 
mortality and other adverse outcomes.
    And the fact that 23 percent of women in this country go 
back to work within two weeks of giving birth, still bleeding 
in some cases, needing to be able to be with their child, is 
just outrageous.
    Mr. Raskin. But Mr. Grothman says that he has the 
impression this is all about women, women, women. But what 
about fathers? What's in there for fathers?
    Ms. Shabo. Well, when fathers have access to paid leave, 
which they do under the FAMILY Act--and we know some best 
practices about incentivizing men's leave-taking. And we know 
that men want to be able to take leave; they just often either 
can't, financially, or feel that the culture is holding them 
back--they're more likely to be engaged in their child's care 
over the long term.
    And some evidence suggests that when men take access to 
leave, women's wages actually go up over the long term. So, 
this is about enforcing or creating new standards around gender 
equity, both in homes and in businesses. But it's also about 
the well-being of that child and the stress in the household.
    Mr. Raskin. Thank you.
    Commissioner Asaro-Angelo, what kind of impact does it have 
on the families in your state to make these kinds of benefits 
available?
    Mr. Asaro-Angelo. It has a tremendous positive impact, 
Congressman. I hear from folks every day--to be quite honest, 
from workers and from businesses--about what it means to them 
to be able to have the stability, whether it be caring for a 
newborn or caring for a family member.
    To hear Ms. Silvani's story and to think about something 
like that going on every day in your family, to not have the 
support of your fellow workers, of your state, of your employer 
to get through that could be devastating.
    And at a time when, as we mentioned earlier, every employer 
is looking for more and more workers, we need to be there as a 
state to help provide for them the support those workers need 
when facing either birth or a family tragedy.
    Mr. Raskin. Thank you. I yield back.
    Chairwoman Maloney. Thank you.
    The chair recognizes the distinguished ranking member, Mr. 
Jordan.
    Mr. Jordan. Thank you, Madam Chair.
    Our colleague from Maryland just was pointing out--trying 
to point out that the tax cuts had no effect on the amazing 
economy. I'll give you some numbers.
    How about the 266,000 jobs that were added just last month 
alone? How about the 54,000 jobs in manufacturing, to my 
colleague from Maryland? How about the fact that unemployment's 
at 3.5 percent? It was a lot higher than that just a few 
years--a lot higher than that before the tax cuts and 
regulatory changes were made.
    And how about this fact? Businesses expanding family leave 
benefits as a result of the Tax Cuts and Jobs Act of 2017: 
Broadridge Financial Solutions, Lake Success, New York; Charles 
Schwab Corporation, San Francisco, California; Chipotle Mexican 
Grill, headquartered in Denver, Colorado; CVS Health, 
headquartered in Woonsocket, Rhode Island; Dollar Tree--Dollar 
Tree--headquartered right here in Virginia; Lowe's, 
headquartered in Mooresville, North Carolina; Rolls Royce; 
Southwire, headquartered in Georgia; Sprouts Farmers Market, 
Ellicott City, Maryland; Starbucks Coffee--all because of the 
tax cut bill.
    Mr. Raskin may have a different opinion about that, but 
we've got all kinds of--TJX Companies, Framingham, 
Massachusetts; Walmart; Western Alliance Bank Corporation--and 
I could go on and on.
    There are all kinds of companies who have expanded--who 
have not just grown our economy, not just the thousands and 
hundreds of thousands of jobs, millions of jobs that have been 
added since then, not just the 3.5 percent unemployment, but 
actually extending benefits to their employees because we got a 
growing economy.
    Mr. Seyedian--did I get that right? Seyedian? Close enough. 
You're giving me the smile. I appreciate that. Is business good 
for you?
    Mr. Seyedian. Yes, business is good for us. I think it's 
just a question of whether you attribute the overarching 
macroeconomic conditions to the tax cut or not.
    Mr. Jordan. Didn't you say you're sending someone up to 
Boston as we speak to hire some more people?
    Mr. Seyedian. Yes, we are.
    Mr. Jordan. Yes. And you just opened your business, I think 
you said, like, within the last two years? You just started?
    Mr. Seyedian. That's correct.
    Mr. Jordan. And business is good. You've got a handful of 
employees already, and you're expanding. Is that right?
    Mr. Seyedian. We have 14 employees. That's correct.
    Mr. Jordan. And you would rather have higher taxes?
    Mr. Seyedian. It's not a question of higher taxes or lower 
taxes for us. I mean, our tax rate is not the fundamental 
variable in how successful our business is.
    Mr. Jordan. So, you want to pay more?
    Mr. Seyedian. Again, I don't think it's a question of 
wanting to pay more or less. I mean, there are greater 
overarching things that impact the health of our business 
beyond whether we pay a little more or a little less in taxes.
    Mr. Jordan. Yes. OK.
    And you decided to offer parental leave to your employees?
    Mr. Seyedian. Yes, we offer short-term disability insurance 
to our employees now. And as the D.C. and Massachusetts 
programs come into effect, we will obviously participate----
    Mr. Jordan. And you made that decision because that's just 
part of your business model. You think that's good for your 
company, for the way you want to conduct business. That's part 
of your business practice and the business model you've 
adopted. And it seems to be working. As you said, you're 
expanding and you've had two good years.
    Mr. Seyedian. Yes, that's correct.
    Mr. Jordan. All right. But you want government now to 
mandate that you do what you decided to do voluntarily.
    Mr. Seyedian. Well, you know, it's a question of, of 
course, you know, we're doing it because we're a very special 
type of company, and there are large companies, like you 
mentioned, like Charles Schwab. And I'm sure the Googles and 
Facebooks do this too. But it's a question of, you know, is a 
slaughterhouse going to offer paid family and medical leave----
    Mr. Jordan. Sprouts Farmers Market----
    Mr. Seyedian [continuing]. Unless it's mandated by----
    Mr. Jordan. Sprouts Farmers Market offers it.
    Mr. Seyedian. Well, and----
    Mr. Jordan. I don't know how big that farmers market--and 
maybe it's big, I don't know. It's in Maryland. I don't know.
    Mr. Seyedian. Sure. And, I mean, I'm sure you can find all 
kinds of examples, but, you know, to your point around 
employers----
    Mr. Jordan. What's the name of your business?
    Mr. Seyedian. It's Well-Paid Maids.
    Mr. Jordan. Well-Paid Maids.
    Mr. Seyedian. That's right.
    Mr. Jordan. They do it.
    Mr. Seyedian. Yes. Yes. And I think it's--I mean, I'm sure 
you can----
    Mr. Jordan. They're not Charles Schwab.
    Mr. Seyedian. Right.
    Mr. Jordan. What do you have, 14 employees?
    Mr. Seyedian. Right. Yes, that's right.
    Mr. Jordan. And you did it.
    Mr. Seyedian. Yes.
    Mr. Jordan. No one told you.
    Mr. Seyedian. That's true.
    Mr. Jordan. But now you want--you've made a business 
decision. Your business model is you're going to offer this 
benefit because you're going to attract the kind of employees 
you like. And you said in your opening statement, your 
customers like that. They like that A-Plus Maids--what was it 
called again? A-1 Maids? What was the name of your business?
    Mr. Seyedian. Sorry?
    Mr. Jordan. What's the name of your business?
    Mr. Seyedian. Well-Paid Maids.
    Mr. Jordan. Well-Paid Maids. They love Well-Paid Maids, and 
they like that concept, and so they're willing to pay, I 
assume, a little more to have the quality of service that you 
offer your customers.
    And you made all that decision on your own as part of the 
business model, and now you're saying, I want the government to 
mandate my competition have to do the same thing now?
    Mr. Seyedian. Well, I mean, as you pointed out, I think it 
was 20 percent of businesses that are extending this benefit.
    And, also, I think the overarching framework around, you 
know, having a stronger economy means that more employers are 
going to offer this--perhaps that's true, but the economy goes 
up and down. Everyone knows that. And so, as someone who has 
personally benefited from, for example, being able to take paid 
medical leave, I don't think this is something that needs to, 
kind of, rise and fall or be offered or not offered according 
to the vagaries of the market----
    Mr. Jordan. I'm not saying that.
    Mr. Seyedian [continuing]. Year to year.
    Mr. Jordan. I'm just saying, my colleague was saying that 
the Jobs and Tax Cuts had nothing to do with the amazing 
economy we've been experiencing, and I would beg to differ, as 
would all kinds of companies, large and small, including yours, 
it seems, that have benefited under this great economy.
    And it seems to me that--I'm all for paid leave, but I 
think people should be able to make that decision on what's 
best for their business model and what's business best for 
their employees just like you did when you started your company 
two years ago and are experiencing this amazing growth in the 
Trump economy.
    With that, I yield back.
    Chairwoman Maloney. The chair recognizes my colleague from 
the great state of California, Jackie Speier, one of the co-
chairs of the Women's Caucus.
    And I congratulate you on your work on this bill and 
others. Thank you.
    Ms. Speier. Thank you, Madam Chair. And double 
congratulations to you. I look forward to serving under your 
distinguished leadership as chair of this committee, and also 
for the success in getting paid family leave for Federal 
employees, which should jump the numbers up a little bit.
    I must say, I'm a little astonished by this debate today, 
because the Republican Party prides itself in being the party 
of the family. And when we have 81 percent of the families in 
this country not eligible for paid family leave, I would think 
you would be running to support this bill.
    But it appears that it's not really about the family; it's 
really about making sure that Big Business has the lowest tax 
rates possible.
    So, let me talk about California, since it's been the 
whipping child here for the last few hours. California passed 
the paid family leave in 2004. Ninety-nine percent of employers 
report that the state's program has had positive or neutral 
effects on employee morale, and 87 percent that the state's 
program has not resulted in any increased costs. Not only have 
wage costs not increased, but turnover rates have decreased. In 
California, implementing paid family leave was even linked to 
an 11-percent decrease in elderly nursing home use.
    And as it was pointed out by my distinguished colleague 
from Michigan, the study that's been referred to by Ms. 
Greszler was a very narrow study. It looked at only the first 
year of operation of this law, back in 2004. It was only for 
moms having their first children. And it was before the law in 
California was enhanced to provide higher wage replacement.
    The study also explained that many of these mothers may not 
have returned to full-time employment out of choice. Amazing, 
that we have free choice to be able to make decisions whether 
we want to stay home with our children or not, in some cases.
    It also showed that women may have worked fewer hours or 
wanted more flexibility or to become self-employed.
    So, that's the California experiment that has actually 
worked extremely well. There is an effort now in our state by 
our Governor, who wants to extend it to six months of paid 
family leave.
    We know in Europe it's one year of paid family leave. And 
if you're in Germany, my goodness, you can go and have a week 
at a spa to deal with postpartum blues, if necessary. So, we 
are so far behind the eight-ball that it's embarrassing.
    And to have this discussion about imposing some burden on 
business, when the FAMILY Act is only going to cost about $2 
per week for the typical worker, says it all.
    So, to you, Ms. Shabo, can you elaborate on the impact that 
California's paid leave program has had?
    Ms. Shabo. Yes. California's program has, by several 
studies, increased work force participation and earnings. It 
has reduced child head trauma. It's had a reduction in Medicaid 
nursing home use, as you said. It's been tremendously positive.
    We've learned a lot about what it takes to implement a 
program effectively and make sure that the people who most need 
to be able to use the program are able to use it. And those 
efforts are ongoing. So, medical-legal partnerships are being 
developed by groups like Legal Aid at Work. The state is trying 
to do a better job of outreach and engagement to people in 
other parts of the state besides the, sort of, big cities. 
There's a lot of work that needs to be done.
    On the cost element, California's contribution is one 
percent. There's never been backlash on that. There's always 
been a surplus in that fund. And what we see in national 
polling data about willingness to pay is that workers are 
willing to pay far more than that one percent and certainly far 
more than the four-tenths of one percent that the FAMILY Act 
would require.
    And, you know, even the cost estimates that are at the 
outer bounds of a good cost estimate around what usage would 
look like show that the costs will not be prohibitive, and that 
people are willing to pay those costs.
    And some of the cost estimates that are out there, like one 
of the ones Ms. Greszler mentioned, are based on completely 
out-of-bounds estimates around leave-taking. So, for example, 
the American Action Forum study that they referenced suggests 
that there would be 16 million parental leaves a year. We only 
have 3.8 million babies born in this country every year. So, we 
can't rely on those cost estimates.
    There are good estimates from the Institute for Women's 
Policy Research and the University of Massachusetts that are 
much more accurate. There's even a cost calculator on the 
American Enterprise Institute site that was developed by a team 
of researchers that shows that costs in no way, even taking the 
most generous estimates, will be more than one percent, and 
more like the four-tenths of one percent that is currently in 
the bill.
    Ms. Speier. I thank you. And I yield back.
    Chairwoman Maloney. Thank you.
    And the chair recognizes Mr. Keller, Representative Keller, 
from Pennsylvania.
    Mr. Keller. Thank you, Madam Chair.
    I just want to thank the panel of witnesses for being here 
today. This is an important topic, and I'm glad the committee 
decided to take this up. As a person who's had firsthand 
experience with a sick child many years ago, you know, this is 
something that is near and dear to me.
    And, also, as a former manager of a large wood products 
manufacturing company, I have experience in operating a 
business and having a large number of employees work at that 
business. And it's clear that successful businesses and 
operations require investing in their employees, whether it's, 
as we did, paid time off--I think we're similar to the maid 
business here, where we had disability policies for employees 
for short-term disability. There are many options available in 
addition to just time off. There were also educational 
opportunities and so on for dependents of the employees.
    But, you know, just one thing I'd like to talk about is, 
now that the Tax Cuts and Jobs Act is the law of the land, 
employers are providing increased wages, more benefits, and 
more flexible schedules for their employees. Under President 
Trump, unemployment has fallen to 3.5 percent.
    And, according to the Society for Human Resource Managers, 
20 percent of employees offer family leave beyond that of FMLA, 
which represents a six percent increase from 2018. So, when 
employers are given the opportunity to provide benefits and 
have the ability to do it, it shows that that is happening.
    Ms. Greszler, do you think this trend would continue?
    Ms. Greszler. I think that if we continue to have this 
strong economy and the tight labor market, that we can 
absolutely expect this trend to continue, because it is in 
employers' best interest to offer these policies.
    Mr. Keller. OK. Thank you.
    And, again, Ms. Greszler, how are companies responding to 
the increased desire for paid family leave?
    Ms. Greszler. A lot of them--the larger companies are 
responding, as we've listened to that list, that they're 
offering formal policies.
    But I think that what we're not hearing as much about is 
the smaller employers, who make up the lion's share of 
employment in the U.S. And whereas they might not be offering 
formal paid family leave policies that show up in the data, I 
think they're offering more flexible options, whether it's 
increased paid time off or just working individually. And 
that's actually how most employees who take family medical 
leave receive pay, is not through that formal FMLA policy but 
through other types of leave that allow them to receive pay.
    Mr. Keller. OK. Thank you.
    And just one thing. In your testimony, you mentioned one-
size-fits-all programs are either too exclusive or too 
inclusive. Can you expand upon that?
    Ms. Greszler. Yes. It's just hard--as we've seen today, 
there are so many different needs for benefits, and some of 
those needs are an entire year or more. And a Federal policy 
that provides 66 percent of your wages for 12 weeks maximum, it 
might make a small dent, but it's not going to meet those 
needs. It's not going to meet long-term needs. It's not going 
to be able to provide that benefit immediately if you have to 
rush away from work for an emergency.
    You know, the better way that we can get at those is the 
flexible policies. And if you become too inclusive and do pass 
a policy of any leave for any reason, the costs are tremendous. 
You know, there was some talk about costs already, but the 
FAMILY Act, that is not a policy that can finance the current 
amount of leave that's taken today. It could finance about one 
in five.
    So, either you have to have rationing of a policy like that 
or you have to scale it back even more so that it's such a 
bare-bones program that it particularly would not be able to 
benefit low-income workers and very few people would use it.
    Mr. Keller. OK. Thank you. I appreciate that.
    And, again, I appreciate the participation of all of the 
panelists today.
    Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. Thank you.
    The chair recognizes Congresswoman Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Madam Chair. And, once again, 
congratulations on this phenomenal hearing on such an important 
topic.
    You know, I have to disclose that I have a stake in this 
fight. When I first was a--when I was first starting my office 
here, I decided to offer 12 weeks of paid family leave. And in 
my first 11 or 12 months in office, there have been six 
pregnancies in my congressional office. And six folks have 
taken pregnancy or medical leave, five of them men in my 
office--new fathers or folks that are taking medical leave 
taking care of their families.
    And this has been a very important dynamic. Many of the men 
in our office have testified how, after the birth of their 
children or in supporting their partners, how critical it has 
been to be there for the, in each of these cases, the women in 
their lives.
    I would like to submit to the congressional record two 
testimoneys from my staffers, Marcus Bedinger and Ariel 
Eckblad, on the impact of paid family leave in our office.
    Chairwoman Maloney. Without objection.
    Ms. Ocasio-Cortez. But, out of these testimoneys, two 
important statements stood out.
    From my staffer Marcus, he said, ``As I write this today, I 
am currently home with my oldest son while my partner visits 
family in Ohio with our youngest son. This might seem an 
inconsequential detail, but if I was not able to take this time 
off from work and be fully paid, my partner would not have been 
able to travel.''
    And from my chief of staff, when asked about does giving 
dads less paid parental leave than moms contribute to the pay 
gap, when asked about that, she said, ``My thought is this. 
There is this often explicit but sometimes tacit assumption 
that child-rearing is the job of the mother. But child-rearing 
is the job of the humans that have collectively decided to have 
that child.''
    When you have an institutional setup that--when you have 
institutional setups that reify that, that say, ``Oh, actually, 
dads don't need as much time because it's not their job to 
child-rear,'' it's problematic. It creates expectations for 
employers who presuppose if I hire a woman in a certain age 
range, she might leave, but if I hire a man in that same age 
range, he would not.
    Ms. Shabo, can you illuminate a little bit on the impact of 
paid family leave for men and on the positive impact that that 
could have on people who give birth?
    Ms. Shabo. Absolutely.
    And the sentiments that your staffers have articulated 
actually came up really poignantly last week on a panel that I 
moderated at New America on the release of our men and care 
report, men and paid leave specifically.
    There were three dads, who talked about the cultural 
expectations that dads wouldn't take leave. They were able to 
negotiate, to cobble together. One of them had a wife who had a 
horrible labor and a baby that was in the NICU, and he was back 
to work within a week, unknowing--you know, he sort of talked 
about how, even in the childbirth classes and Lamaze and all of 
the other things he did, there was never a discussion from the 
hospital system or from his employer or from any of the other 
men in his life about the importance of men taking leave.
    So, policy is a precondition. We have to design policies 
that have wage replacement that's high enough that men can 
afford to take leave. We also need a culture and sort of a 
discussion and men standing up to say, ``Leave-taking is 
important to me, and here's the way that it allowed me not just 
to bond with my child but also to support my partner.''
    Ms. Ocasio-Cortez. Thank you, Ms. Shabo.
    Ms. Greszler, you said earlier that you don't believe in a 
minimum wage. Is that correct? You believe the market should 
decide.
    Ms. Greszler. I don't think that we should take a job 
opportunity away from somebody if they're willing to work at a 
particular wage----
    Ms. Ocasio-Cortez. OK.
    Ms. Greszler [continuing]. That the government is not 
allowing them----
    Ms. Ocasio-Cortez. So, no, you don't believe in a minimum 
wage.
    I take it you don't believe in healthcare as right either. 
Is that correct?
    Ms. Greszler. I believe that we should help provide access 
to healthcare.
    Ms. Ocasio-Cortez. OK. Do you believe that employers should 
offer healthcare to every employee that they have?
    Ms. Greszler. I think that as part of a benefits package 
they should determine what is the best way and what do the 
workers work want.
    Ms. Ocasio-Cortez. OK. So, no, you don't believe it should 
be uniformly offered.
    Ms. Greszler. I think it should be what workers want and 
what employers are about to provide.
    Ms. Ocasio-Cortez. OK. So, the answer is no.
    And, similarly, your view on parental leave is to let the 
market decide. And I think what we've seen here is that the 
market has decided.
    Ms. Shabo, 80 percent of families don't have access and 
workers don't have access to paid parental leave, correct?
    Ms. Shabo. Paid family leave.
    Ms. Ocasio-Cortez. Paid family leave.
    Ms. Shabo. So, to care for a child or a seriously ill 
family member. About a half of moms don't have access to paid 
leave.
    Ms. Ocasio-Cortez. So, the markets decide.
    And what is the most common length of parental or family--
paid family leave that you have seen?
    Ms. Shabo. In general, it's, like, six to eight weeks, but 
it really depends----
    Ms. Ocasio-Cortez. Six----
    Ms. Shabo [continuing]. And there's not a great----
    Ms. Ocasio-Cortez. Yes.
    Ms. Shabo [continuing]. There's not a great sample that 
tells us.
    Ms. Ocasio-Cortez. So, six weeks. Do we know how long 
puppies are allowed to stay with their mothers after a dog has 
given birth?
    Ms. Shabo. I don't.
    Ms. Ocasio-Cortez. Eight weeks.
    Ms. Shabo. Wow.
    Ms. Ocasio-Cortez. So, the market has decided that women 
and people who give birth deserve less time with their children 
than a dog.
    And I think that that, at its core, has shown that the 
market has failed to treat people with dignity and with basic 
respect. And so, when that happens, I think it's our job, as 
the public, to redefine the rules of society and to treat 
people who give birth with the dignity that they deserve.
    Thank you very much.
    Chairwoman Maloney. Thank you.
    The chair recognizes Congressman Gomez.
    Mr. Gomez. Madam Chair, thank you so much for doing this 
important issue.
    This is an issue for me that's personal. Most issues are. 
But when I was growing up, my parents worked four, five, six 
jobs a week to make ends meet. And I got sick when I was about 
seven years old, ended up in the hospital with pneumonia. And 
between my parents wanting to make sure there was a parent 
there every moment of the day that I was in the hospital, they 
missed shifts at work, and also the increase in hospital bills 
that put a strain on our family. We almost bankrupted our 
family, and we almost lost our house.
    So, this is an issue that I cared about when I entered into 
the California state legislature, and I started trying to 
figure out how do we tackle this issue. And I learned about 
paid family leave. And they did a study in 2014, 10 years after 
paid family leave was implemented, and they had learned a lot 
of lessons. It wasn't a perfect law, but it was actually a 
revolutionary law. It started off--nobody else had done it.
    But there were three things that were lacking. One was wage 
replacement needed to be high enough so people can actually 
take time off and take it. There has to be better job 
protection, especially for people that are working at places 
with less than 50 employees. And the last one was awareness.
    I actually introduced AB-908, which redefined and 
restructured the wage replacement in California so that lower-
income workers get a higher wage replacement than the higher-
income workers. We are still seeing how that is going to play 
out, but we recognize that we need to make this stronger and 
better.
    And we've seen great statistics: 40 percent of men now 
taking time off; that it's no longer a question, why is a man 
taking time off to bond with a newborn child, but more of an 
expectation. Right? That's a good thing. You know, ask any 
woman if it's a good thing that a man will spend time with 
their own child to bond, they would say yes.
    Companies recognize that. You know, more and more companies 
are pushing and pushing and pushing--right?--for paid family 
leave, not just because--and it is the market, because they 
know in order to compete for the workers that they need, they 
need to offer this benefit.
    So, the market is responding, but that's because we had the 
courage enough to pass a law that most people said would drive 
business out of California, when California is now the economic 
engine, and always has been, of the country. So, paid family 
leave is a step forward, but we're making it even better.
    I want to focus on New Jersey, because I know New Jersey 
did a program. I just wanted to see what you guys are seeing in 
New Jersey when it comes to paid family leave over a decade. 
How many workers have been able to access paid family leave? 
And what have the benefits been to the working families in your 
state?
    Mr. Asaro-Angelo. Thank you for the question, Congressman.
    Right now, we have 6.5 million workers covered in New 
Jersey. And unlike some other proposals in other states, this 
is for every worker in New Jersey, regardless of the size of 
the business. So, that way, we're trying to make sure that 
every worker can take part in it, not just on the birth of a 
child or adoption but also on the caregiving side.
    We've recently expanded our family leave program to now 
where we'll be able to have a higher wage replacement, up to 85 
percent, starting July 1 of next year, up from the current 66 
percent.
    So, while the program started in 2009, we've been trying to 
learn from it as we go along. And I think that this past year's 
changes and improvements that were passed in February are going 
to go a long way to addressing a lot of the problems that some 
of the folks on the panel have had with implementation of paid 
family medical leave, because I think it's going to do a lot to 
reduce inequality in usage of the system.
    Mr. Gomez. There's a lot of questions about, like, impact 
on business. Has New Jersey's program negatively impacted the 
state's businesses and the business climate?
    Mr. Asaro-Angelo. Absolutely not. And I've got to tell you, 
most--when I hear from businesses about our programs, quite 
frankly, it's about calling me to help them process a claim 
quicker every now and then.
    But we've had an increase in businesses over the time that 
FLI has been in place. Small businesses have grown six percent 
in New Jersey. And like the person to my left talks about, it 
levels the playing field. And when businesses want to offer 
benefits to their workers, being able to participate in our 
program, that's one cost they don't have to worry about, 
because they know their workers are going to have that 
protection, have the benefits to have the wage replacement when 
they have to go out for the birth of a child or a caregiving 
incident.
    Mr. Gomez. I think this panel is very interesting, because 
it's really starting to dig into the issues. But paid family 
leave programs and any legislation is not perfect. You have to 
kind of look at it and see how it's implemented--implementation 
is always key--and then make adjustments as you learn more.
    But I think that California and New Jersey, Connecticut, 
Rhode Island--like, the states that are implementing it are 
starting a trend that I think will reach Congress, and we 
actually will be able to implement a national paid family leave 
program for the states that refuse to do so.
    Thank----
    Mr. Asaro-Angelo. And we're in constant contact with our 
fellow states who have these programs about what is working and 
what isn't and small tweaks we can make together to improve all 
of our systems.
    Mr. Gomez. Well, thank you so much.
    And I want to thank all the panelists.
    Madam Chair, congratulations on your first day.
    Chairwoman Maloney. Thank you. Thank you so much.
    And I want to thank all the panelists and particularly note 
Ms. Silvani.
    Your testimony was very moving to me, as a mother of two 
children. To think of that type of crisis is traumatic, and I'm 
happy to hear that your son Joe is doing better. And I hear 
stories like yours all the time. People write me. Some of the 
most effective advocates who come to my office are people like 
you who have had a crisis and turn that energy into working for 
change.
    You wrote that your medical crisis quickly became a 
financial crisis for your family. How did that added financial 
stress impact your family?
    Ms. Silvani. It just added more stress to an already 
stressful situation. My husband was unable to spend time with 
his son while he was in the hospital because he had to work. 
So, the crisis of a child being sick or someone close in your 
family being sick is both financial and emotional.
    Chairwoman Maloney. And you wrote in your testimony that 
your family is still feeling these financial impacts. I 
understand you lost your retirement funds. Do you think your 
family will ever recover financially from this stress and 
financial crisis?
    Ms. Silvani. We lost years of investment for our 
retirement. So, I do know that--you know, I'm 38 years old. My 
husband is 43 years old. We lost five years' or so worth of 
investments that we would've been able to have as we get older.
    I don't have any more funds to pull from in case Joe does 
get sick again, which is quite a possibility. So, we don't have 
the space in our finances to be able to keep saving and to be 
prepared for that event that may happen with Joe.
    Chairwoman Maloney. And you've also wrote about the 
generosity of your neighbors that came together and helped you 
in so many ways. But a national paid leave program means that 
families like yours would not have to really hope that your 
neighbors would be as generous and wonderful as yours were. And 
a national program means that families would be able to 
maintain their financial stability in the event of a crisis, 
because workers and employers will both contribute to a 
comprehensive nationwide program.
    So, Ms. Shabo, I'd like to end by asking you, do you think 
Americans would be willing to pitch in for a program like this? 
They've been generous on their own, but do you think they'd 
want to create a national program that would provide the 
support for families?
    Ms. Shabo. Yes.
    Chairwoman Maloney. We say that that's our number-one 
priority as a Nation, but if you look at the policies that are 
in place, there's not enough support for families--in fact, 
very little.
    Ms. Shabo. Yes.
    Chairwoman Maloney. And, in fact, our own country, along 
with Papua New Guinea, we're among two countries in a United 
Nations survey, only two countries in the world, who did not 
provide for paid leave for the birth of a child.
    Ms. Shabo. Yes.
    Chairwoman Maloney. And I am thrilled to say that, today, 
Adam Smith announced at our caucus meeting that he had 
negotiated and gotten that provision in the National Defense 
Authorization Act so that 2.1 million families will now have 
that benefit and support.
    And we know, from Rosa DeLauro's testimony and others', 
that we will be pushing very hard to expand that to the private 
sector and to others to provide more support for our families.
    I can't tell you how thrilled I am that we passed that. I 
could tell you my own stories all day, and I think many women 
and men have the same stories. And hopefully this will be a new 
day in America; we can continue providing more support for 
families.
    I really want to thank all of you and all of my colleagues 
on both sides of the aisle who were here to testify and to 
really help us move forward.
    But before I conclude today's hearing, I would like to ask 
unanimous consent to enter into the record a statement 
submitted for this hearing by the majority leader, Congressman 
Steny Hoyer from Maryland.
    Congressman Hoyer has long been a champion for all workers, 
and I appreciate his tireless efforts on the NDAA to reach the 
possible deal for our Federal employees. He has been with me in 
so many meetings and press conferences in support of this goal.
    Chairwoman Maloney. I would also like to enter into the 
record letters from nearly two dozen organizations that the 
committee has received in recent days. These letters describe 
the critical need for a national comprehensive paid family and 
medical leave program among several diverse communities and 
include submissions from the National Partnership for Women and 
Families; 1,000 Days; the Main Street Alliance; Small Business 
Majority; Human Rights Campaign; NARAL Pro-Choice America; and 
more.
    I ask unanimous consent that these materials be entered 
into the official hearing record.
    So, ordered.
    Chairwoman Maloney. And I also would like to thank our 
witnesses, once again, for testifying.
    Without objection, all members have five legislative days 
within which to submit additional written questions for the 
witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able.
    Chairwoman Maloney. This hearing is adjourned. Thank you.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
